la
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
Appellate Case: No. 19-1245
(D.C. No. 1:17-CV-01194-WJM-SKC)(D. Colo.)
Filed: July 23, 2020
ALIREZA VAZIRABADI
Plaintiff - Appellant,
v.
DENVER PUBLIC SCHOOLS; JOHN
AND JANE DOES 1 THROUGH 10;
JOHN AND JANE DOE
CORPORATIONS 1 THROUGH 10;
OTHER JOHN AND JANE DOE
ENTITIES 1 THROUGH 10, ad whose
true names are unknown,
Defendants - Appellees.
ORDER AND JUDGMENT *
Before TYMKOVICH, Chief Judge, EBEL, and HARTZ,
Circuit Judges.
* After examining the briefs and appellate record, this
panel has determined unanimously that oral argument would not
materially assist in the determination of this appeal. See Fed. R.
App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore ordered
submitted without oral argument. This order and judgment is not
binding precedent, except under the doctrines of law of the case,
res judicata, and collateral estoppel. It may be cited, however, for
its persuasive value consistent with Fed. R. App. P. 32.1 and 10th
Cir. R. 32.1.

2a
Appendix A
Alireza Vazirabadi, appearing pro se,1 brought this
employment discrimination action against Denver Public
Schools (“DPS”), alleging that he was not hired for a
position as a Process Improvement Engineer (“PIE”)
because of his national origin and age. Vazirabadi appeals
the district court’s order granting DPS’s Motion for
Summary Judgment. Exercising jurisdiction under 28
U.S.C. § 1291, we affirm.
I. BACKGROUND
Vazirabadi is an Iranian American man in his mid­
fifties. In 2015, Vazirabadi saw a job posting online—DPS
was seeking applicants for two Process Improvement
Engineer (“PIE”) positions. A qualified candidate needed
an engineering degree and at least five years of relevant
experience. DPS also sought candidates with strong
collaborative leadership skills. Vazirabadi has a bachelor’s
degree in Industrial Engineering and, as of 2015, he had
over 20 years of relevant experience. He applied for the
position through DPS’s online job application system. In
2015, the application asked candidates if they were
bilingual and, if so, in what languages (the “bilingual
question”). Vazirabadi indicated that he is bilingual in
Farsi/Persian. Vazirabadi did not report his bilingualism
on any other materials or at any other stage in the
interview process, nor was he asked about this at any time.
Vazirabadi did not report his age or national origin at any
point in the interview process.

1 Because Vazirabadi appears pro se, we construe his filings
liberally, but we do not “assume the role of advocate” for
Vazirabadi. Garrett v. Selby Connor Maddux & Janer, 425 F.3d
836, 840 (10th Cir. 2005) (quoting Hall v. Bellmon, 935 F.2d
1106, 1110 (10th Cir. 1991)).

3a
Appendix A
Vazirabadi was selected for a phone interview. He and
four other candidates were then invited to undergo inperson interviews. The first component of the in-person
interview process was a panel interview with the hiring
manager and three incumbent PIEs. The panel asked each
applicant to facilitate a group discussion about team­
building activities in Denver. Vazirabadi s account of his
performance differs from his interviewers’ account.
Vazirabadi asserts that he facilitated a collaborative
discussion and that he maintained “excellent interactions
and chemistry with all the panel members, for the entire
60 minute interview.” (Doc. 117 at 13) At the end of the
interview, one of the interviewers asked Vazirabadi if he
prefers to be called “Alireza” or “ALL” (Id.) Vazirabadi took
this a sign that he would certainly be offered the position.
In contrast, DPS maintains that Vazirabadi dominated the
conversation and failed to engage all members of the panel
in the conversation.
After DPS had interviewed all five candidates, the
interviewers met to compare notes and rank the candidates
on a scale of one through five, one being the most desirable.
The ranking order was unanimous; each interviewer
agreed that Vazirabadi was the least desirable candidate
and he was therefore ranked fifth. The hiring manager
created a spreadsheet to reflect that ranking and included
a comment about Vazirabadi: “Good experience, not a good
team fit. Not sure if he would work well on a team.” (Doc.
116-1 at 30) DPS extended offers to the candidates ranked
first and second, and both candidates accepted. The hiring
manager then emailed Vazirabadi to inform him that DPS
had decided to hire other candidates.
Vazirabadi alleged that the email left him feeling
“emotionally and physically sick, numb, humiliated and
rejected” because he was “100% sure” he had “perfect”
qualifications and had “performed great” in his interview.

4a
Appendix A
(Doc. 67 at 8,1| 27)
Vazirabadi filed a charge of discrimination with the
EEOC and subsequently received a Notice of Right to Sue.
Vazirabadi filed a complaint against DPS in May 2017.
Vazirabadi amended his complaint once as a matter of
course, and he later received leave from the court to file a
second amended complaint. In his operative Second
Amended Complaint, Vazirabadi asserts that DPS engaged
in national origin discrimination in violation of Title VII of
the Civil Rights of 1964 (“Title VII”), 42 U.S.C. §§ 2000e et
seq., and age discrimination in violation of the Age
Discrimination in Employment Act (“ADEA”), 29 U.S.C. §§
621 et seq. In May 2018, the magistrate judge held a
scheduling conference and set deadlines to guide the
proceedings. The magistrate judge set a deadline of June
30, 2018 as the last day to add parties or amend pleadings.
In September 2018, Vazirabadi served a subpoena to
produce on non-party Infor Global Solutions (“Infor”). Infor
is a software company that licenses online job application
software to DPS. Vazirabadi sought information from Infor
about its development of the bilingual question for DPS’s
job application software. Infor refused to produce the
requested information, and Vazirabadi filed a motion to
compel. The magistrate judge denied the motion,
concluding that Vazirabadi had failed to demonstrate how
the information he sought from Infor was relevant to his
claims against DPS. Vazirabadi filed an objection to the
magistrate judge’s ruling.
On November 30, 2018—five months after the June
30, 2018 deadline for amending pleadings—Vazirabadi
filed a motion to amend his Second Amended Complaint.
On February 8, 2019, while the November 30, 2018 motion
was still pending before the court, Vazirabadi filed another
motion to amend his Second Amended Complaint. Through

5a
Appendix A
those motions, Vazirabadi sought to add claims for
conspiracy between DPS and Infor. The magistrate judge
recommended denying those motions, and Vazirabadi filed
an objection to that recommendation.
On January 14, 2019, DPS moved for summary
judgment, and the magistrate judge recommended
granting that motion. Vazirabadi filed an objection to that
recommendation.
On June 25, 2019, the district court issued its Order
on Pending Recommendations and Motions. First, the
court adopted the magistrate judge’s recommendation
regarding Vazirabadi’s motions to amend, overruled
Vazirabadi’s objection to that recommendation, and denied
Vazirabadi’s November 30, 2018 Motion to Amend and his
February 8, 2019 Motion to Amend. Second, the court
adopted the magistrate judge’s recommendation regarding
DPS’s Motion for Summary Judgment, overruled
Vazirabadi’s objection to that recommendation, and
granted DPS’s Motion for Summary Judgment. Third, the
court overruled as moot Vazirabadi’s objection to the
magistrate judge’s denial of Vazirabadi’s motion to compel.
Vazirabadi appeals each of those rulings.
II. DISCUSSION
A. The district court did not err in denying
Vazirabadi’s motions to amend.
We review the district court’s ruling on a motion for
leave to file an amended complaint for an abuse of
discretion. Zisumbo v. Ogden Reg’l Med. Ctr., 801 F.3d
1185, 1195 (10th Cir. 2015). Rule 15(a)(2) provides that
after the initial deadline for amendment has passed, “a
party may amend its pleading only with the opposing
party’s written consent or the court’s leave.” Fed. R. Civ. P.
15(a)(2). “The court should freely give leave when justice so
requires.” Id. However, “jajfter a scheduling order

6a
Appendix A
deadline, a party seeking leave to amend must
demonstrate (1) good cause for seeking modification under
Fed. R. Civ. P. 16(b)(4) and (2) satisfaction of the Rule 15(a)
standard.” Gorsuch, Ltd., B.C. v. Wells Fargo Nat’l Bank
Assoc., 771 F.3d 1230, 1240 (10th Cir. 2014). Rule 16(b)(4)
provides that “[a] schedule may be modified only for good
cause and with the judge’s consent.” “In practice, this
standard requires the movant to show the ‘scheduling
deadlines cannot be met despite [the movant’s] diligent
efforts.’” Gorsuch, 771 F.3d at 1240 (quoting Pumpco, Inc.
v. Schenker Int’l, Inc., 204 F.R.D. 667, 668 (D. Colo. 2001)).
“Rule 16’s good cause requirement may be satisfied, for
example, if a plaintiff learns new information through
discovery or if the underlying law has changed.” Id. “If the
plaintiff knew of the underlying conduct but simply failed
to raise [applicable] claims, however, the claims are
barred.” Id. Courts are “afforded wide discretion” in their
application of the good cause standard under Rule 16. Bylin
v. Billings, 568 F.3d 1224, 1231 (10th Cir. 2009).
Vazirabadi failed to show that the June 30, 2018
deadline could not have been met despite his diligent
efforts. See Gorsuch, 771 F.3d at 1240. In his November 30,
2018 Motion to Amend, Vazirabadi sought to add Infor and
Infor’s CEO as parties to this action. Vazirabadi learned
about Infor through discovery on August 16, 2018—106
days before he filed his first motion to amend. Vazirabadi
does not offer any explanation for that delay. Vazirabadi
knew of Infor’s involvement but failed to raise claims
against them for more than 100 days. Similarly, in his
February 8, 2019 Motion to Amend, Vazirabadi sought to
add as parties two DPS employees who were involved in
interviewing and making hiring decisions for the two PIE
positions. Vazirabadi knew of those employees and their
involvement in interviewing and making hiring decisions
from the outset of the case. Yet, after fifing his initial

7a
Appendix A
complaint, he waited 233 days—more than eight months—
before attempting to add those employees as parties to this
action. Again, Vazirabadi offers no justification for that
delay. Vazirabadi did not satisfy Rule 16’s good cause
standard. Therefore, the district court acted within its
discretion in denying Vazirabadi s motions to amend, both
of which were filed long after the June 30, 2018 scheduling
deadline.
B. The district court did not err in granting DPS’s
Motion for Summary Judgment.
“We review the district court’s summary-judgment
order de novo, applying the same standard that the district
court is to apply.” Singh u. Cordle, 936 F.3d 1022, 1037
(10th Cir. 2019). “Summary judgment is appropriate if the
pleadings, depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any, show
that there is no genuine issue of material fact and one party
is entitled to judgment as a matter of law.” Jiron v. City of
Lakewood, 392 F.3d 410, 414 (10th Cir. 2004) (citing Fed.
R. Civ. P. 56(c)). “Although we construe the evidence in the
light most favorable to the non-movant, to avoid summary
judgment, a nonmovant must provide significantly
probative evidence that would support a verdict in [his or
her] favor.” Jaramillo v. Adams Cty. Sch. Dist. 14, 680 F.3d
1267, 1268-69 (10th Cir. 2012).
Vazirabadi claims that DPS discriminated against
him based on his national origin and age, in violation of
Title VII and the ADEA. Because Vazirabadi offers no
direct evidence of discrimination, we apply the burden
shifting framework of McDonnell Douglas Corp. v. Green,
411 U.S. 792 (1973). Under the McDonell Douglas
framework, “the plaintiff has the initial burden of
establishing a prima facie case of discrimination.” Singh,
936 F.3d at 1037. “In general, ‘[t]he critical prima facie
inquiry ... is whether the plaintiff has demonstrated that

8a
Appendix A
the adverse employment action . . . occurred under
circumstances which give rise to an inference of unlawful
discrimination.’” Id. (quoting Kendrick v. Penske Transp.
Servs., Inc., 220 F.3d 1220, 1227 (10th Cir. 2000)). “If the
plaintiff makes this showing, the burden shifts to the
employer to assert ‘a legitimate nondiscriminatory reason
for its actions.”’ Id. (quoting Daniels v. United Parcel Serv.,
Inc., 701 F.3d 620, 627 (10th Cir. 2012)). If the employer
meets that burden, “the burden shifts back to the plaintiff
to introduce evidence that the stated nondiscriminatory
reason is merely a pretext.” Id. (quoting Daniels, 701 F.3d
at 627).
To establish a genuine issue of material fact as to
pretext, a plaintiff must demonstrate that the “proffered
non-discriminatory reason is unworthy of belief.”
Reinhardt v. Albuquerque Pub. Sch. Bd. ofEduc., 595 F.3d
1126, 1134 (10th Cir. 2010) (quoting Pinkerton v. ColoDep’t
of Transp., 563 F.3d 1052, 1065 (10th Cir. 2009)). A
plaintiff “can meet this standard by producing evidence of
‘such weaknesses, implausibilities, inconsistencies,
incoherencies, or contradictions in the employer’s proffered
legitimate reasons for its action that a reasonable
factfinder could rationally find them unworthy of credence
and hence infer that the employer did not act for the
asserted non-discriminatory reasons.’” Id. (quoting
Pinkerton, 563 F.3d at 1065).
The district court concluded that even if Vazirabadi
had made a prima facie case of national origin or age
discrimination, DPS satisfied its burden of providing
legitimate, non-discriminatory reasons for not hiring
Vazirabadi, and Vazirabadi failed to make a showing of
pretext. We agree.

9a
Appendix A
DPS argues that it chose not to hire Vazirabadi
because he performed poorly in his interviews. The
evidence in the record supports DPS’s position. Regarding
Vazirabadi s performance in his panel interview, the hiring
manager stated that Vazirabadi “performed poorly”
because, rather than facilitating a group discussion, “he
dictated it.” (Doc. 116-1 at 2—3) The hiring manager also
observed that Vazirabadi “was unable to make all the
Process Improvement team members feel he was listening
to their ideas.” (Id.) One bf the incumbent PIEs offered a
similar account, stating that Vazirabadi “dominated the
discussion rather than facilitate it.” (Doc. 116-5 at 1) A
supervisor described her impression that Vazirabadi
“would not be able to work collaboratively and
consultatively in a team role.” (Doc. 116-2 at 2) In contrast,
interviewers described the two candidates who were
ultimately hired for the positions as demonstrating strong
collaborative and listening skills. Based on his
performance, all interviewers ranked Vazirabadi fifth out
of five candidates. In documenting Vazirabadi3s rank, the
hiring manager commented: “Good experience, not a good
team fit. Not sure if he would work well on a team.” (Doc.
116-1 at 30)
Moreover, the hiring manager stated in an affidavit
that, at the time she made her hiring decision, she was not
aware that applicants were required to complete an online
job application, and she was therefore not aware of any
applicant’s response to the bilingual question. She further
stated that the age, national origin, and language
proficiency of the candidates had no bearing on her hiring
decisions.
Vazirabadi does not offer any evidence to show that
DPS’s proffered non-discriminatory reasons for choosing
not to hire him are unworthy of belief. See Reinhardt, 595
F.3d at 1134. He offers only his own impression that he

10a
Appendix A
maintained “excellent interactions and chemistry with all
the panel members, for the entire 60 minute interview.”
(Doc. 117 at 13) Vazirabadi does not present any evidence
of
“weaknesses,
implausibilities,
inconsistencies,
incoherencies, or contradictions” that would cast doubt on
DPS’s assertion that it chose not hire Vazirabadi because
he performed poorly in his interviews and had gaps in his
employment history. Reinhardt, 595 F.3d at 1134 (quoting
Pinkerton, 563 F.3d at 1065). Vazirabadi has therefore
failed to meet his burden under the McDonell Douglas
framework, and DPS is entitled to summary judgment.2
III. CONCLUSION
We AFFIRM the district court’s rulings in its Order on
Pending Recommendations and Motions.

Entered for the Court
David M. Ebel
Circuit Judge

2 In his brief, Vazirabadi raises four specific arguments to
challenge the summary judgment ruling: (1) DPS discarded the
panel interview notes and thus an adverse inference should be
applied against DPS to remedy the spoliation; (2) DPS
interviewers submitted false affidavits, and the court failed to
weigh the evidence in favor of Vazirabadi; (3) DPS’s bilingual
question had a disparate impact on members of a protected class;
and (4) Vazirabadi, as the fifth ranked candidate, was actually
the most desirable candidate. We have carefully considered each
of these arguments and find them to be unpersuasive.
Accordingly, we do not discuss them further.

11a
Appendix B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge William J. Martinez
Civil Action No. 1:17-CV-01194-WJM-SKC
Document: 143
Filed: June 25, 2019
ALIREZA VAZIRABADI,
Plaintiff,
v.
DENVER PUBLIC SCHOOLS; JOHN AND JANE DOES 1
THROUGH 10; JOHN AND JANE DOE CORPORATIONS
1 THROUGH 10; OTHER JOHN AND JANE DOE
ENTITIES 1 THROUGH 10, all whose true names are
unknown,
Defendants.
ORDER ON PENDING
RECOMMENDATIONS AND MOTIONS
This matter is before the Court on two
recommendations by United States Magistrate Judge S.
Kato Crews. (ECF Nos. 125 & 135.) In the first
recommendation, filed on March 6, 2019, Judge Crews
recommended that this Court (1) deny Plaintiff Alireza
Vazirabadi’s (“Plaintiff’ or “Vazirabadi”) Motion to Amend
Second Amended Complaint (“November 30, 2018 Motion
to Amend”; ECF No. 108); and (2) deny Plaintiffs Second
Motion to Amend Second Amended Complaint (“February
8, 2019 Motion to Amend”; ECF No. 118) (collectively,
“Motions to Amend”). (“March 6, 2019 Recommendation”;
ECF No. 125.)
In the second recommendation, filed on March 28,
2019, Judge Crews recommended that this Court (1) grant
Defendant Denver Public Schools’ (“DPS”) Motion for

12a
Appendix B
Summary Judgment (“Motion for Summary Judgment”;
ECF No. 116); (2) dismiss with prejudice Plaintiffs Second
Amended Complaint (“Second Amended Complaint”; ECF
No. 67); (3) enter judgment in favor of DPS and against
Plaintiff; (4) dismiss without prejudice the John and Jane
Doe Corporations 1 through 10 (“Doe Corporations”); and
(5) dismiss without prejudice the Other John Doe Entities
1 through 10 (“Doe Entities”). (“March 28, 2019
Recommendation”; ECF No. 135.)
The March 6, 2019 Recommendation and March 28,
2019 Recommendation are incorporated herein by
reference. See 28 U.S.C. § 636(b)(1)(B); Fed. R. Civ. P.
72(b). Plaintiff filed timely objections to the March 6, 2019
Recommendation (“March 12, 2019 Objection”; ECF No.
129) and the March 28, 2019 Recommendation (“April 11,
2019 Objection”; ECF No. 136).
Also pending before the Court are Plaintiff’s (1)
objection to Judge Crews’s denial of his motion to compel
(“Objection to Denial of Motion to Compel”; ECF No. 107);
and (2) motion seeking leave to file a surreply (“Motion for
Leave to File Surreply”; ECF No. 113).
For the reasons set forth below, the March 6, 2019
Recommendation is adopted in its entirety, Plaintiffs
March 12, 2019 Objection is overruled, Plaintiffs
November 30, 2018 Motion to Amend is denied, Plaintiffs
February 8, 2019 Motion to Amend is denied, the March
28, 2019 Recommendation is adopted as modified,
Plaintiffs April 11, 2019 Objection is overruled, DPS’s
Motion for Summary Judgment is granted, Plaintiffs
Objection to Denial of Motion to Compel is overruled as
moot, and Plaintiffs Motion for Leave to File Surreply is
denied as moot.
I. LEGAL STANDARD
When a magistrate judge issues a recommendation on
a dispositive matter, Federal Rule of Civil Procedure 72(b)(3)

13a
Appendix B
requires that the district judge “determine de novo any
part of the magistrate judge’s [recommendation] that has
been properly objected to.” An objection to a
recommendation is properly made if it is both timely and
specific. United States v. 2121 East 30th St., 73 F.3d 1057,
1059 (10th Cir. 1996). An objection is sufficiently specific
if it “enables the district judge to focus attention on those
issues—factual and legal—that are at the heart of the
parties’ dispute.” Id. In conducting its review, “[t]he district
court judge may accept, reject, or modify the
recommendation; receive further evidence; or return the
matter to the magistrate judge with instructions.” Fed. R.
Civ. P. 72(b)(3). Here, Plaintiff filed a timely objection to
the March 6, 2019 Recommendation and to the March 28,
2019 Recommendation. (See ECF Nos. 129 & 136.)
Therefore, the Court reviews the issues before it de novo,
except where otherwise noted.
In considering the recommendations, the Court is also
mindful of Plaintiffs pro se status, and accordingly, reads
his pleadings and filings liberally. Haines v. Kerner, 404
U.S. 519, 520—21 (1972); Trackwell v. United States, 472
F.3d 1242, 1243 (10th Cir. 2007). The Court, however,
cannot act as advocate for Plaintiff, who must still comply
with the fundamental requirements of the Federal Rules of
Civil Procedure. See Hall v. Bellmon, 935 F.2d 1106, 1110
(10th Cir. 1991); see also Ledbetter v. City of Topeka, 318
F.3d 1183, 1188 (10th Cir. 2003).
IL BACKGROUND
The following factual summary is primarily drawn
from the various motions pending before the Court and
documents submitted in support, as well as Plaintiff’s
Second Amended Complaint. These facts are undisputed
unless attributed to a party.
A. Introduction
Plaintiff is a 55-year-old Iranian-American citizen
residing in Aurora, Colorado. (ECF No. 67 at 1, 1.)

14a
Appendix B
In 2015, DPS was recruiting two Process Improvement
Engineers (“PIE”) for its Risk Management Department.
(ECF No. 116-1 at 1, If 4.) On August 3, 2015, Plaintiff
applied for one of the positions after seeing DPS’s job
posting on a job listing website (“Job Posting”; id. at 11—
12). (ECF No. 67 at 4, f 19; see also ECF No. 116-1 at 1316.) Plaintiff was invited to several rounds of interviews,
but DPS chose to hire other candidates. (ECF No. 116-1 at
1—3.) This lawsuit followed. (ECF No. 1.)
B.

PIE Position Requirements

The Job Posting described “the purpose of the [PIE]
position, expected outcomes and results, and overview of
areas of accountability,” as follows:
The Process Improvement Engineer (PIE)
guides DPS departments in collaborative
process improvement and re-engineering
projects .... The PIE will lead or mentor
process owners through transformational
business
process
definition
and
re­
engineering projects ....
In addition, the PIE will increase awareness
of the value of business process improvement
throughout DPS, will train and mentor DPS
employees in the use of process improvement
tools, and will share business process
improvement best practices with other DPS
initiatives.
(ECF No. 116-1 at 11.)
In describing “specific knowledge and qualifications
required for the job,” the Job Posting listed in pertinent
part the following requirements:
• Strong interpersonal and teamwork skills with
the ability to negotiate and influence others.
• Excellent [ ]verbal communication and
presentation skills.
• Able to work collaboratively with cross functional
teams and with DPS employees at all levels of the
organization from executive leadership to line staff.
(Id. at 12.)

15a
Appendix B
In detailing the “minimum education and experience
required for the [PIE position]”, the Job Posting provided
that the applicant must have:
• [A] Bachelor’s degree in Industrial Engineering.
• At least 5 years of work experience in continuous
improvement or a related field, with a focus on
process design/re-engineering and Lean Six Sigma.
• At least 5 years of work experience in cross-functional
project management.

(Id.)
C. PIE Recruitment Process
When there is a vacancy for a PIE position, the job is
posted by DPS, and candidates submit an application and
other materials, including resumes and cover letters,
through DPS’s online application system. (Id. at 2, % 5; see
also ECF No. 67 at 4, ^ 19.)
During the relevant time period, Karen Johnson
served as DPS’s Senior Manager of Process Improvement
and the hiring manager for PIEs. (ECF No. 116-1 at 1,
2, 4.) Johnson’s standard practice is to gather resumes and
cover letters from the online applications and select
candidates for phone interviews. (Id. at 2, *[ 5.) After
conducting phone interviews, Johnson chooses candidates
to advance to the following in-person interviews: (1) one
panel interview with Johnson and the PIEs on her team;
and (2) one interview with DPS’s Director of Risk
Management, Terri Sahli, who was Johnson’s supervisor at
the time. (Id.)
D. Plaintiff’s Application for the PIE Position
Twenty-six individuals, including Plaintiff, applied for
one or both of the two vacant PIE positions using DPS’s
online application system. (Id. at 2, *[ 5; see also ECF No.
117 at 27.) To apply, applicants had to complete a DPS
online job application (“Job Application”; ECF No. 116-3).
(ECF No. 116-1 at 2—3,
5, 13.) The Job Application asked

16a
Appendix B
applicants a set of 13 questions, such as:
• Are you eligible for employment in the United States?
• Are you presently employed? If so, where?
• Are you 18 years or older?
(See ECF No. 116-3.) In pertinent part, the Job Application
asked applicants to indicate whether they were “bilingual,”
and if so, to identify the language. (Id. at 2.) In his Job
Application, Plaintiff answered that he was bilingual in
“Farsi/Persian.” (Id.) Plaintiff claims that this answer
“identified his Iranian heritage/national origin.” (ECF No.
140 at 2, If 3.) However, the Job Application did not ask for,
and Plaintiff did not provide, his age or national origin.
(See ECF No. 116-3.)
After completing the Job Application, applicants were
then asked to submit their cover letters and resumes to
DPS’s online application system. (ECF No. 116-1 at 2—3,1ft
5, 13.) Plaintiff submitted both documents, but did not
state his age, national origin, or language proficiency in
either document. (Id. at 13-16.) Johnson gathered the
applicants’ resumes and cover letters, and selected nine
candidates, including Plaintiff, for phone interviews. (Id.
at 2, K1 5, 7.)
E. Phone Interviews
The phone interviews were conducted by Johnson and
lasted from 45 to 60 minutes. (Id. at 32.) Johnson
interviewed all nine candidates by phone between August
28 and September 2, 2015. (Id. at 27, 32.) During the phone
interviews, Johnson asked each of the nine candidates the
same set of questions, none of which concerned the
candidate’s age, national origin, or language proficiency.
(See id. at 21—26.)
Plaintiffs phone interview took place on August 31,
2015. (Id. at 27, 31.) During the interview, Johnson informed
Plaintiff that there were two open PIE positions and that
he would “be considered for both.” (ECF No. 136 at 12,1f 7.1.)

17a
Appendix B
Plaintiff took this comment as “positive feedback.”
(Id.) In the interview, Plaintiff did not discuss his age,
national origin, or language proficiency with Johnson.
(ECF No. 116-1 at 3, 13; see also id. at 21—22; ECF No.
116-4 at 2; ECF No. 116-6 at 4, 10.)
F. Panel Interviews
After conducting the phone interviews, Johnson chose
six candidates, including Plaintiff, for the in-person
interviews. (ECF No. 116-1 at 2, ^ 8.) The candidate pool
narrowed to five after one applicant declined to interview.

(Id.)
The purpose of the panel interview was to test a
candidate’s facilitation skills and the essential functions
of the PIE position, including: (1) the ability to achieve
project results working closely and collaboratively with
executive sponsors, process owners, and project teams;
(2) strong interpersonal and teamwork skills with the
ability to negotiate and influence others; and (3) the ability
to work collaboratively with cross functional teams and
with School District employees at all levels of the
organization from executive leadership to line staff. (Id. at
2, Ilf 4, 8; see also id. at 11-12.) To test these skills, the
panel asked each candidate “to facilitate a group discussion
on the topic of ‘things to do for a team building event in
Denver [the “Facilitation Question”].”’ (Id. at 2, 1[ 8.; see
also ECF No. 67 at 7,1 24; ECF No. 117 at 25-26.)
Plaintiffs panel interview took place on September 10,
2015. (ECF No. 67 at 7, f 24; ECF No. 116-1 at 29.)
Plaintiffs interviewers consisted of Johnson and the three
incumbent PIEs—Andra Manczur, Katie Wolters, and
Jeffrey Gwaltney. (ECF No. 116-1 at 2, 1 8.) According to
Plaintiff, all of the panel members “had 2-page interview
questionnaire[s],” on which they “continuously made hand­
written notes” for the duration of his panel interview. (ECF
No. 117 at 13, *[[ 5; see also id. at 17—18.) In his panel

18a
Appendix B
interview, Plaintiff did not discuss his age or national origin.
(ECF No. 116-1 at 3,1 13; see also ECF No. 116-4 at 2; ECF
No. 116-5 at 2, f 7; ECF No. 116-6 at 7, 10.)
In her affidavit, Johnson described Plaintiffs
performance at his panel interview, particularly in regard
to how Plaintiff answered the Facilitation Question, as
follows:
[Mr. Vazirabadi] performed poorly. Instead of
facilitating a group discussion, he dictated it. He was
unable to make all the Process Improvement team
members feel he was listening to their ideas, and
rather than engaging us and drawing out ideas about
potential team building events in Denver, he told us
what we should do. Mr. Vazirabadi also focused
mostly on me instead of giving everyone on the team
equal attention. Although Mr. Vazirabadi had many
years of engineering experience, it was clear after the
panel interview that he was unlikely to meet the
School District’s needs and be successful in the PIE
position.
(ECF No. 116-1 at 2-3, f 9.)
Gwaltney’s account of how Plaintiff performed in his
panel interview is similar to Johnson’s description:
Mr. Vazirabadi did not do well in his interview. He
dominated the discussion rather than facilitate it,
telling [the interviewers] what we should do in Denver
rather than elicit our own ideas. It was more like a
lecture than a shared discussion, with little
collaboration. Mr. Vazirabadi also seemed to focus
most of his attention on Ms. Johnson, neglecting me
and my colleagues Andra Manczur and Katie Wolters.
As someone who was working as a PIE, it was
apparent to me that Mr. Vazirabadi did not show the
facilitation skills needed for the job. To be successful,
a PIE must have strong interpersonal skills, be an
excellent listener, and have the ability to work
collaboratively with employees at every level of the
School District.
(ECF No. 116-5 at 1,1 4.)
Plaintiff disputes these accounts, asserting that
Johnson and Gwaltney’s “characterization of [his] facilitation

19a
Appendix B
performance is categorically false, untrue, defamatory and
extremely hurtful.” (ECF No. 117 at 13-14, ^ 5.) In
particular, Plaintiff alleges that he “had excellent
interactions and chemistry with all the panel members, for
the entire 60 minute interview.” (Id. at 13, f 5.)
From his fillings, it is evident that one event in
particular is of great importance to Plaintiff. (See, e.g., ECF

No. 1 at 4-5, mi 23, 25; ECF No. 67 at 7-8, HI 24, 29; ECF
No. 117 at 5, 13, If 5, 9; ECF No. 118 at 86-87, 117-118;
ECF No. 129 at 5,f 10; ECF No. 136 at 14, f 7.7; ECF No.
140 at 2, f 5.) This “memorable and validating moment”
occurred right before Plaintiff left the panel interview
room, when Gwaltney asked Plaintiff: “do you like to be
called Alireza or Ali?” (ECF No. 67 at 7, f 24.) Noticing that
the other panel members were awaiting his response,
Plaintiff responded “Ali.” (Id.) Plaintiff asserts that
Gwaltney’s question “proves the interview panel was
looking forward to [Plaintiffs] immediate hiring” and that
a “picture fails to capture” these “last few exchanged words
saying over 1000 words.” (Id.; ECF No. 136 at 18.)
In his response to the Motion for Summary Judgment,
Plaintiff attached as an exhibit a “Team Facilitation
Narrative,” wherein Plaintiff describes in detail his version
of how his panel interview transpired when he was asked
the Facilitation Question. (ECF No. 117 at 25—26.) From
his narrative, Plaintiff appears to be arguing that, contrary
to Johnson and Gwaltney’s assertions, his interview went
well as the panel members showed “sincere excitement,”
laughed at his “funny joke[s],” and smiled approvingly. (Id.
(emphasis omitted).) In addition, Plaintiff appears to
describe a more collaborative environment, one where he
did not dominate the discussion. (Id.)
In Johnson and Gwaltney’s affidavits, they discuss
how two of the candidates, Thach Nguyen and Ashley
Schroeder (who were ultimately hired), significantly
outperformed Plaintiff in their panel interviews. (See ECF

20a
Appendix B
No. 116-1 at 3, If 10; ECF No. 116-5 at 2, f 5.) In particular,
they discuss how Nguyen and Schroeder “demonstrated
strong collaborative skills,” superior listening skills, and
were able to successfully facilitate a group discussion in a
collaborative manner that involved the entire group. (ECF
No. 116-1 at 3, f 10; ECF No. 116-5 at 2, f 5.)
G. Plaintiffs Interview with Sahli
Plaintiff and each of the other candidates who
participated in the panel interviews also interviewed with
Sahli. (ECF No. 116-1 at 2, If 5; ECF No. 116-2 at 2, If 1 7,
9.) Sahli s “only role in the hiring process was to conduct a
short one-on-one interview with each finalist Ms. Johnson
identified and then provide feedback to Ms. Johnson,” but
ultimately the “hiring decisions were made by Ms.
Johnson.” (ECF No. 116-2 at 2,1f 7.)
Plaintiffs one-on-one interview with Sahli took place
on September 15, 2015. (ECF No. 116-1 at 29.) The
following is Sahli s account of the interview:
Mr. Vazirabadi came across as very sale-andentrepreneurial-oriented. PIEs do not work in
isolation, and their role is not to solicit business within
the School District. My impression was that Mr.
Vazirabadi would not be able to work collaboratively
and consultatively in a team role. I also did not feel
that Mr. Vazirabadi would be able to work within the
standardized service model Ms. Johnson implements.
(ECF No. 116-2 at 2, f 9.) During the interview, Sahli did not
ask and Plaintiff did not disclose his age, national origin, or
proficiency in “Farsi/Persian.” (Id. at 2, ^f 10; see also ECF No.
116-4 at 2; ECF No. 116-6 at 7, 10.)
H. Resumes of the Relevant Applicants
The resumes of the applicants also played an
important role in Johnson’s hiring decision. (See ECF No.
116 at 5, 15; ECF No. 116-1 at 2-3, 1f1 7, 12.) In regard to
Plaintiff, Johnson noted that he has a Bachelor of Science
in Industrial Engineering from the University of
Wisconsin— Stout, and that he had over 20 years of

21a
Appendix B
engineering experience in California and Colorado. (ECF
No. 116-1 at 2, f 7; see also id. at 15—16.) However, Johnson
also noted that since October 2013, Plaintiffs only
occupation had been as an UberX Driver and that he had a
“previous four-year gap in professional employment while
he served as a caregiver.” (Id. at 2, ^ 7; see also id. at 15.)
Plaintiff was 52 years-old when he interviewed with DPS
for the PIE positions. (ECF No. 140 at 3—4, Tf 11.)
Nguyen has a Bachelor of Science in Materials Science
and Engineering from Cornell University’s College of
Engineering. (ECF No. 116-1 at 18; see also ECF No. 116 at
5, Tf 14.) At the time of his interviews, Nguyen had over six
years of relevant engineering experience with no gaps in
his professional employment. (ECF No. 116-lat 18; see also
ECF No. 116 at 5, If 14.) Nguyen was 28 years-old when
DPS offered him the PIE position. (ECF No. 67 at 3, f 17.)
Schroeder has a Bachelor in Science in Industrial
Engineering from the University of Michigan’s College of
Engineering. (ECF No. 116-1 at 19-20; see also ECF No.
116 at 5, T1 14.) At the time of her interviews, Schroeder
had over five years of relevant engineering experience with
no gaps in her professional employment. (ECF No. 116-1 at
19—20; see also ECF No. 116 at 5, Tf 14.) Schroeder was “in
her thirties” when DPS offered her the PIE position. (ECF
No. 67 at 3,1 17.)
I. Hiring Decision
After the last panel interview concluded on September
21, 2015, the panel met to rank the five candidates from
one to five, with one being the most desirable candidate,
and five being the least desirable. (ECF No. 116-1 at 3, If 11;
see also id. at 29—30.) Each panelist individually ranked
the candidates in the exact same order: Schroeder was the
highest ranked candidate (with a ranking of one), Nguyen
was the second highest ranked candidate (with a ranking
of two), and Plaintiff was the lowest ranked candidate

22a
Appendix B
(with a ranking of five).1 (ECF No. 116-1 at 3, f 11; ECF
No. 116-5 at 2, f 6; ECF No. 121-1 at 4—5.) Johnson
recorded these rankings onto a spreadsheet (titled
“Ranking Matrix”) and included the following comment
about Plaintiff: “Good experience, not a good team fit. Not
sure if he would work well on a team.”2 (ECF No. 116-1 at
30; see also ECF No. 121-1 at 5.)
After this discussion, Johnson decided to offer the
open PIE positions to Nguyen and Schroeder. She
determined that “[t]hey both had the requisite engineering
experience and displayed the best collaboration,
leadership, interpersonal, and teamwork skills.” (ECF No.
116-1 at 3, ^ 12.) Schroeder and Nguyen accepted the
offers of employment and advanced to background
screening with DPS's Human Resources Department. (Id.;
see also id. at 40—43.) On September 23, 2015, Johnson
informed Plaintiff that DPS had decided to hire other
candidates. (Id. at 39.)
Johnson asserts that at the time she made her hiring
decision for the PIE positions, she was not aware that
applicants were required to complete the online Job
Application questions before submitting their resumes and
1 Plaintiff argues that the “Ranking Matrix analysis proves Vazirabadi
is [the] highest ranked candidate” since he had the highest numerical
ranking. (ECF No. 136 at 14, f 7.8; see also ECF No. 122 at 8-9, f 5.)
Plaintiff supports this assertion by pointing to the interview
questionnaires the panel members allegedly took notes on during his
interview. (ECF No. 122 at 12—13.) On the questionnaires, there is an
“Overall Ranking” index, in which a higher score correlates with a
higher ranking, and vice versa. (Id. at 13.) Thus, Plaintiff appears to
argue that since he had the highest numerical ranking of five, he was
actually the highest ranked candidate when compared to the other
candidates who had lower numerical rankings—namely, one through
four. (See ECF No. 116-1 at 30.)
2 Plaintiff was not the only candidate the panel determined would not
work well on their team. (See ECF 116-1 at 30.) Similarly, the panel
found that the third ranked candidate—who had “[ejxcellent
experience” as opposed to Plaintiff’s “[g]ood experience”—was “not a
good team fit.” (Id.)

23a
Appendix B
cover letters, and therefore she was not aware of any
applicant’s responses on these questions, including
responses to the bilingual question. (Id. at 3, f 13.) Further,
it is undisputed that Plaintiff did not report or identify his
age or national origin in his Job Application, in his cover
letter, on his resume, or otherwise at any stage of his
interviews. (Id.; see also id. at 13-16; ECF No. 116-3; ECF
No. 116-4 at 2; ECF No. 116-6 at 7, 10.) Other than
identifying that he was bilingual in Farsi/Persian on the Job
Application, Plaintiff did not further indicate his
bilingualism on any materials or at any other stage in the
process. (ECF No. 116-1 at 3, f 13; see also id. at 13-16; ECF
No. 116-3; ECF No. 116-4 at 2; ECF No. 116-6 at 7, 10.)
Thus, Johnson asserts that the “age, national origin, and
language proficiency of Mr. Vazirabadi, Mr. Nguyen, and
Ms. Schroeder had no bearing whatsoever on [her] hiring
decisions for the PIE positions.” (ECF No. 116-1 at 3, ^ 13.)
In sum, the only evidence to suggest that DPS knew of
Plaintiff s national origin is that he reported being bilingual
in “Farsi/Persian” on his Job Application. (ECF No. 67 at
10-11; see also ECF No. 116-3 at 2; ECF No. 116-4 at 2; ECF
No. 116-6 at 10.) Meanwhile, Plaintiffs only allegation
concerning his age is that Johnson and the other
interviewers inferred his age from his physical appearance.
(See ECF No. 116-4 at 2; ECF No. 116-6 at 7.)
III. PROCEDURAL HISTORY
Plaintiff initiated this action on May 15, 2017. (ECF
No. 1.) After DPS filed a motion to dismiss Plaintiffs
complaint pursuant to Federal Rules of Civil Procedure
12(b)(1) and 12(b)(6), Plaintiff filed his First Amended
Complaint as a matter of course on July 14, 2017. (ECF Nos.
22 & 26.) In his First Amended Complaint, Plaintiff brought
six claims against DPS and several others. (ECF No. 26.)
On July 28, 2017, DPS filed a motion to dismiss
Plaintiffs First Amended Complaint pursuant to Federal
Rules of Civil Procedure 12(b)(1) and 12(b)(6). (ECF No. 29.)

24a
Appendix B
On March 30, 2018, this Court granted the motion in part
and dismissed all of Plaintiffs claims except for his claim
against DPS for national origin discrimination in violation
of Title VII of the Civil Rights Act of 1964 (“Title VIF), 42
U.S.C. §§ 2000e et seq. (ECF No. 50.) On May 7, 2018,
Plaintiff filed a motion to amend his First Amended
Complaint. (ECF No. 60.)
On May 11, 2018, United States Magistrate Judge
Michael E. Hegarty held a scheduling conference and set
case deadlines to guide these proceedings. (ECF No. 62.)
Specifically, Judge Hegarty set a deadline of June 30, 2018,
as the last day to add parties or amend the pleadings (“June
30, 2018 Deadline”; ECF No. 63 at 11). Id. During the
Scheduling Conference, Judge Hegarty granted Plaintiff’s
motion to file a Second Amended Complaint, which was
docketed on May 15, 2018.3 (ECF Nos. 62 & 67.) In the
Second Amended Complaint, Plaintiff brings action against
DPS, the Doe Corporations, the Doe Entities, and John and
Jane Doe 1 through 10 (the “Doe Individuals”) for national
origin discrimination in violation of Title VII and for age
discrimination in violation of the Age Discrimination in
Employment Act (“ADEA”), 29 U.S.C. §§ 621 et seq. (ECF
No. 67.)
During discovery, Plaintiff served a subpoena to
produce on a non-party, Infor, Inc. (“Infor”). (ECF No. 94.)
Infor is a software company that licenses online job
Application software to DPS. (ECF No. 99 at 2.) DPS used
Infor’s software for the online Job Application, which
included the question of whether the applicant is bilingual.
(ECF No. 97 at 2, t 4.) With his subpoena to Infor, Plaintiff
sought, among other information, production of various data
related to Infor s development of the “bilingual question”
used by DPS. (Id.; see also ECF No. 94.) Infor refused to
produce the requested information, leading Plaintiff to file a
3 On August 6, 2018, this case was reassigned to Judge Crews. (ECF No.
85.)

25a
Appendix B
motion to compel. (ECF No. 97 at 1, 1 1.) On November 6,
2018, Judge Crews held a hearing on the motion to compel.
(ECF No. 106.) After discussion and argument regarding the
motion, Judge Crews denied Plaintiffs motion to compel.
(Id.; see also ECF No. 109 at 24.)
As a result, Plaintiff filed his Objection to Denial of
Motion to Compel, which is currently pending before the
Court. (ECF No. 107.) Infor subsequently responded to
Plaintiffs objection. (ECF No. 111.) On December 5, 2018,
Plaintiff filed a surreply (ECF No. 112) to Infor’s response
and a Motion for Leave to File Surreply (ECF No. 113),
which is currently pending before the Court. (Id.)
Five months after the June 30, 2018 Deadline for
amending pleadings and adding parties, Plaintiff filed the
November 30, 2018 Motion to Amend. (ECF No. 108.)
While that motion was still pending before the Court,
Plaintiff filed the February 8, 2019 Motion to Amend. (ECF
No. 118.) Through these Motions to Amend, Plaintiff seeks
to add four new parties: (1) Infor; (2) Charles Philips (Infor s
CEO), in his individual capacity; (3) Johnson, in her
individual capacity; and (4) Gwaltney, in his individual
capacity. (ECF Nos. 108 & 118.) In addition, Plaintiff seeks
to add various claims against DPS and these four parties for
conspiracy, invasion of privacy, and conspiracy to violate
Title VII. (See ECF Nos. 108 & 118.) Judge Crews reviewed
the November 30, 2018 Motion to Amend and the February
8, 2019 Motion to Amend, and issued his March 6, 2019
Recommendation. (ECF No. 125.)
On January 14, 2019, DPS moved for summary
judgment, arguing that the record clearly establishes that
Plaintiffs age and national original did not play a role in
DPS’s hiring decision. (ECF No. 116.) Judge Crews reviewed
DPS’s Motion for Summary Judgment and issued his March
28, 2019 Recommendation. (ECF No. 135.)

26a
Appendix B
IV. MOTIONS TO AMEND
SECOND AMENDED COMPLAINT
In the March 6, 2019 Recommendation (referred to as
the “Recommendation” for the remainder of this Section IV),
Judge Crews recommended that Plaintiffs November 30,
2018 Motion to Amend (ECF No. 108) and February 8, 2019
Motion to Amend (ECF No. 118) be denied. (ECF No. 125.)
Plaintiffs March 12, 2019 Objection (referred to as the
“Objection” for the remainder of this Section IV) disputes
various portions of the Recommendation. (ECF No. 129.)
After discussing the controlling law, the Court will address
Judge Crews’s findings and Plaintiffs objections in turn.
A.

Standard for Modifying the Scheduling
Order After the Deadline

“After a scheduling order deadline, a party seeking
leave to amend must demonstrate (1) good cause for seeking
modification under Fed. R. Civ. P. 16(b)(4) and (2)
satisfaction of the Rule 15(a) standard.” Gorsuch, Ltd., B.C.
v. Wells Fargo Nat. Bank Assn, 771 F.3d 1230, 1240 (10th
Cir. 2014). If a plaintiff fails to satisfy either factor—(1) good
cause or (2) Rule 15(a)—then the plaintiff is not entitled to
have the scheduling order modified. Id. at 1241.
Rule 16 of the Federal Rules of Civil Procedure
provides that a scheduling order “may be modified only for
good cause and with the judge’s consent.” Fed. R. Civ. P.
16(b)(4). “Good cause” under this rule “is much different
than the more lenient standard contained in Rule 15(a).
Rule 16(b) does not focus on the bad faith of the (plaintiff),
or the prejudice to the opposing party.” Colo. Visionary
Acad. v. Medtronic, Inc., 194F.R.D. 684, 687 (D. Colo. 2000).
Rather, Rule 16(b) focuses on the “diligence of the party
seeking leave to modify the scheduling order to permit the
proposed amendment.” Id.
In practice, this standard requires the plaintiff “to show
the scheduling deadlines cannot be met despite [the
plaintiffs] diligent efforts.” Gorsuch, 711 F.3d at 1240

27a
Appendix B
(internal quotation marks omitted). “Rule 16’s good cause
requirement may be satisfied, for example, if a plaintiff
learns new information through discovery or if the
underlying law has changed.” Id. “If the plaintiff knew of the
underlying conduct but simply failed to raise [the] claims,
however, the claims are barred.” Id. Moreover, district
courts are “afforded wide discretion” in their application of
the good cause standard under Rule 16(b). Bylin v. Billings,
568 F.3d 1224, 1231 (10th Cir. 2009).
B. The November 30, 2018 Motion to Amend
1. The Recommendation
In the Recommendation, Judge Crews found that
Plaintiff had not sustained his burden under Rule 16(b)(4)
as he had failed to establish that good cause supports
modifying the Scheduling Order. (ECF No. 125 at 6—9.) As a
result, Judge Crews recommended that Plaintiffs November
30, 2018 Motion to Amend be denied. (Id. at 13.)
At the outset, the Recommendation noted that the
November 30, 2018 Motion to Amend—wherein Plaintiff
seeks to add Infor and its CEO—was filed 153 days after the
June 30, 2018 Deadline for amending pleadings and adding
parties. (Id. at 6.) Plaintiff argued that he had only learned
of Infers involvement in this case after obtaining certain
discovery. (Id.; see also ECF No. 108 at 2, Tf 4.) The
Recommendation found that Plaintiffs argument was not
persuasive because Plaintiff had acquired this information
on August 16, 2018—106 days before Plaintiff filed his
November 30, 2018 Motion to Amend. (ECF No. 125 at 6.)
The Recommendation noted that after learning of
Infer s alleged involvement in the case on August 16, 2018,
Plaintiff chose to undertake the following actions concerning
the software company:
Vazirabadi’s subpoena to Infor [was served on]
August 20, 2018 [ECF No. 94 at 2]; he filed a motion
to compel Infor to comply with the subpoena on

28a
Appendix B
September 24, 2018 [ECF No. 97]; the [c]ourt held a
hearing on the motion to compel, and denied it, on
November 6, 2018 [ECF No. 106]; and, Vazirabadi
filed an objection to this [c]ourt’s denial of the motion
to compel on November 19, 2018 [ECF No. 107].
(ECF No. 125 at 6-7.) Judge Crews emphasized that
“[d]espite all of this activity regarding Infor from August 16
to November 19, 2018, Vazirabadi did not seek to add Infor
(or its CEO) as a defendant to this case until November 30,
2018.” (Id. at 7.)
Judge Crews noted that instead of seeking to amend
his complaint “as soon as he became aware of the underlying
facts described in his motion[ ], Vazirabadi waited several
months to make his request.” (Id. at 8.) Indeed, Judge Crews
found that the “timing, facts, and course of this litigation
suggest that Vazirabadi knew the circumstances giving rise
to his purported amendments far earlier than when he chose
to file the [November 30, 2018 Motion to Amend].” (Id.) For
these reasons, Judge Crews determined that Plaintiff had
not sustained his burden under Rule 16(b)(4) and thus
recommended that Plaintiffs November 30, 2018 Motion to
Amend be denied. (Id. at 9, 13.)
2. Plaintiffs Objections
In the Objection, Plaintiff concedes that he had learned
of Infor’s existence on August 16, 2018, but nonetheless
argues that he exercised “100% Due Diligence” in filing his
November 30, 2018 Motion to Amend since he sought
discovery “11 days” after learning of Infor’s alleged
involvement in the case. (ECF No. 129 at 3, f 5 (emphasis
in original).)
In support, Plaintiff highlights how he promptly served
a subpoena on Infor, and followed with a motion to compel
disclosure on September 24, 2018. (Id.) Plaintiff also
discusses how his motion to compel was subsequently
denied by Judge Crews, and how his objection to that ruling
is still pending before this Court. (Id. at 3, Hf 5-6.)

29a
Appendix B
3. Analysis
The Court finds Plaintiffs arguments to be wholly
unconvincing. Rule 16(b)’s “good cause” standard “requires
the [plaintiff] to show the scheduling deadlines cannot be
met despite [the plaintiffs] diligent efforts.” Gorsuch, 711
F.3d at 1240 (internal quotation marks omitted). Here,
Plaintiff does not attempt to satisfy that standard. Instead,
he argues that he should be allowed to add Infor and its CEO
as parties to this action, even though the deadline for adding
parties has long elapsed, because he diligently sought
discovery from Infor. This clearly does not make the
requisite showing that the scheduling deadline could not
have been met despite Plaintiffs diligent efforts.
Indeed, Plaintiffs actions in seeking discovery from
Infor supports the finding that Plaintiff has failed to
demonstrate good cause since Plaintiff strategically chose to
seek non-party discovery from Infor for over three months,
but did not attempt to add it as a party. (See ECF No. 125
at 7 (“Despite all of this activity regarding Infor from August
16 to November 19, 2018, [Plaintiff] did not seek to add Infor
(or its CEO) as a defendant to this case until November 30,
2018”).) Plaintiff made the tactical choice to seek discovery
from Infor and not add them as a party. It was only when
Plaintiff had exhausted his discovery avenues in regard to
Infor that he attempted to add it as a party. See Rosenzweig
v. Azurix Corp., 332 F.3d 854, 865 (5th Cir. 2003) (where
plaintiffs “deliberately chose to delay amending their
complaint, ...a busy court need not allow itself to be imposed
upon by the presentation of theories seriatim”) (internal
quotations marks omitted).
The Court recognizes that the good cause requirement
may be satisfied “if a plaintiff learns new information
through discovery.” Gorsuch, 711 F.3d at 1240. At first
glance, it would appear that Plaintiffs November 30, 2018
Motion to Amend could potentially fall within this category
as he learned about Infor through discovery on August 16,

30a
Appendix B
2018, after the June 30, 2018 Deadline for amending
pleadings. However, Plaintiff did not file his motion to
amend right away or in a timely fashion—nor did Plaintiff
exercise diligence in his efforts to amend his complaint.
Instead, he waited 106 days before filing his November 30,
2018 Motion to Amend. When a “plaintiff knew of the
underlying conduct but simply failed to raise [the] claims, .
. . the claims are barred.” Id. Here, Plaintiff knew of the
underlying conduct concerning his claims against Infor and
its CEO on August 16, 2018, but he failed to raise those
claims until November 30, 2018. As a result, Plaintiff is not
entitled to leave in order to bring those claims.
The Court also acknowledges that Plaintiff is
proceeding pro se, but even then, he is held to the same rules
of procedure that govern other litigants. See Garrett v. Selby
Connor Maddux & Janer, 425 F.3d 836, 840 (10th Cir. 2005)
(“[t]his court has repeatedly insisted that pro se parties
follow the same rules of procedure that govern other
litigants”). Moreover, the Court frankly finds the record to
be entirely devoid of anything that could lend credence to
the notion that good cause exists for allowing Plaintiff to
amend his complaint.
In sum, Plaintiff has failed to show that the June 30,
2018 Deadline could not have been met despite his diligent
efforts. See Gorsuch, 711 F.3d at 1240. Rather, the record
clearly shows that Plaintiff knew of the information
underlying his November 30, 2018 Motion to Amend over
100 days before he attempted to amend his complaint. As a
result, Plaintiff has failed to satisfy Rule 16(b)’s good cause
inquiry and therefore he is not entitled to leave to amend.4
4 In the Recommendation, Judge Crews found that Plaintiffs November
30, 2018 Motion to Amend should also be denied because Plaintiff had
failed to satisfy Rule 15(a). (ECF No. 125 at 9—12.) Because the Court finds
that no good cause exists for amending the Scheduling Order, it need not
consider the Recommendation’s findings, nor Plaintiffs objections,
concerning whether Plaintiff has satisfied Rule 15(a). See Gorsuch, 771
F.3d at 1240-41.

31a
Appendix B
See id. at 1240—41. Accordingly, the Court adopts the
Recommendation to the extent it denies Plaintiffs
November 30, 2018 Motion to Amend.
C. February 8, 2019 Motion to Amend
1.

The Recommendation

In the Recommendation, Judge Crews found that
Plaintiff had not sustained his burden under Rule 16(b)(4)
as he had failed to demonstrate that good cause supports
modifying the Scheduling Order. (ECF No. 125 at 6—9.) As a
result, Judge Crews recommended that Plaintiffs February
8, 2019 Motion to Amend be denied. (Id. at 13.)
Judge Crews highlighted how Plaintiffs February 8,
2019 Motion to Amend—wherein Plaintiff seeks to add
Johnson and Gwaltney—was fded 223 days after the June
30, 2018 Deadline for amending pleadings and adding
parties. (Id. at 6.) Judge Crews then discussed how Plaintiff
seeks to add Johnson and Gwaltney based on their affidavits
submitted in support of DPS’s Motion for Summary
Judgment on January 14, 2019, wherein they averred that
Plaintiff performed poorly in his panel interview. (Id. at 7.)
Judge Crews noted, however, that the “information contained
in Johnson and Gwaltney s affidavits is not new” as “it has
always been DPS’s position that Plaintiff performed poorly
during his [panel] interview.” (Id. at 7 (citing ECF No. 53 at
4-5, U 24).)
Judge Crews noted that Plaintiffs Second Amended
Complaint, which was docketed on May 15, 2018, “refers to
both Johnson and Gwaltney,” discusses how “they were part
of a team of interviewers who interviewed Vazirabadi, and
that he ‘did poorly’ during a part of his interview.” (ECF No.
125 at 7 (quoting ECF No. 67 at 4, 17 f 18).) Judge Crews
further observed that Plaintiffs Second Amended
Complaint “even alleges that DPS ‘falsified [Vazirabadi’s]
panel interview performance’ by stating that he ‘did poorly’
during a part of his interview.” (ECF No. 125 at 7 (quoting

32a
Appendix B
ECF No. 67 at 4^f 18).) The Recommendation found that
“[d]espite his knowledge of Johnson and Gwaltney since at
least May 15, 2018, including their role in his interview and
DPS’s position that he 'did poorly’ during a part of the
interview in which Johnson and Gwaltney participated,
Vazirabadi waited over eight months before seeking to add
these individuals as named defendants to this case.” (ECF
No. 125 at 7—8.)
Judge Crews noted that instead of seeking to amend
his complaint “as soon as he became aware of the underlying
facts described in his motionf ], Vazirabadi waited several
months to make his request.” (Id. at 8.) Indeed, Judge Crews
found that the “timing, facts, and course of this litigation
suggest that Vazirabadi knew the circumstances giving rise
to his purported amendments far earlier than when he chose
to file the [February 8, 2019 Motion to Amend].” (Id.) For all
these reasons, Judge Crews found that Plaintiff failed to
show good cause to modify the Scheduling Order and
therefore recommended Plaintiffs February 8, 2019 Motion
to Amend be denied. (Id. at 9, 13.)
2. Plaintiffs Objections
In the Objection, Plaintiff acknowledges that his
February 8, 2019 Motion to Amend was filed 223 days after
the deadline set forth in the Scheduhng Order, but argues
that there is good cause to amend the Scheduhng Order
because Johnson and Gwaltney did not file their affidavits
until January 14, 2019. (ECF No. 129 at 4, *\\ 10.) Plaintiff
alleges that Johnson and Gwaltney’s affidavits are “totally
false, factually contradictory, solidly incriminating that
domino-like, factually substantiates all of Vazirabadi s
claims that indeed: (a) Vazirabadi was highest ranked hiring
candidate, (b) defendants [sic] did not hire him despite his
highest ranking,” and so on. (Id. at 4r-6 (emphasis in
original).)
Plaintiff also asserts that Judge Crews erroneously
“did not consider Vazirabadi’s most important, substantive

33a
Appendix B
and consequential reply (DOC # 126) against [DPS’s
Response to his February 8, 2019 Motion to Amend].” (ECF
No. 129 at 1, 1f 3 (emphasis in original); see also id. at 2, 6
1ft
11.) Lastly, Plaintiff claims that he “presented many
good causes [in] previous fded documents, such as DOCS#s
108, 117, 118, 122 and most importantly: DOC# 126.” (Id. at
6, t 11 (emphasis in original).)
3. Analysis
The Court finds Plaintiffs arguments again to be
wholly without merit. While the Court recognizes that the
good cause requirement may he satisfied “if a plaintiff learns
new information through discovery,” Gorsuch, 711 F.3d at
1240, it is abundantly clear that Plaintiff’s February 8, 2019
Motion to Amend is not based on new information as
Plaintiff appears to contend. Rather, Plaintiff seeks to
amend his complaint based on information that Plaintiff
knew about long before he initiated this action on May 15,
2017—namely, Johnson and Gwaltney’s statements that
Plaintiff performed poorly in his panel interview.
Indeed, Plaintiff attached as an exhibit to his February
8, 2019 Motion to Amend the Position Statement DPS
submitted to the Equal Employment Opportunity
Commission on February 26, 2017.5 (See ECF No. 118 at
144—49.) In the Position Statement, DPS discusses much of
the information included in Johnson and Gwaltney’s
affidavits. (Compare id., with ECF No. 116-1 at 1—4, and
ECF No. 116-5.) In pertinent part, the Position Statement
discusses how Plaintiff was interviewed by Johnson and
Gwaltney and details how Plaintiff “performed poorly” in his
panel interview. (ECF No. 118 at 144-46.) Notably, the
section discussing Plaintiffs poor performance in his panel
5 Plaintiff has included DPS’s Position Statement in numerous filings.
(See, e.g., ECF No. 26 at 35, 38; ECF No. 108-1 at 66-71; ECF No. 117
at 27—32.) Indeed, excerpts of the Position Statement were even
included in his original complaint. (ECF No. 1 at 26, 28.)

34a
Appendix B
interview is quite similar to the corresponding sections in
Johnson and Gwaltney’s affidavits. (Compare id. at 145—46,
with ECF No. 116-1 at 2—3, If 9, and ECF No. 116-5 at 1, ^
4.) Thus, it is beyond dispute that Plaintiffs February 8,
2019 Motion to Amend is not based on new information.
Moreover, the Court notes that during Gwaltney’s
deposition on August 16, 2018, Plaintiff discussed how he
was considering bringing claims against Gwaltney in this
action. (See ECF No. 122 at 15.) Yet, Plaintiff waited
another 176 days after that date, even though the deadline
for adding parties had elapsed, to seek leave to add
Gwaltney to this lawsuit. (ECF No. 118.)
Plaintiff appears to acknowledge to a certain extent
that the information contained in Johnson and Gwaltney’s
affidavits is not new information, arguing instead that
“neither [Johnson or Gwaltneys] depositions, nor [DPS’s]
previous filings [,] ever made such direct and brazen false
statements against Vazirabadi’s 9/10/2015 panel interview
performance.” (Id. at 4, n.l (emphasis in original).) The
Court finds this argument to be unpersuasive. It is
immaterial whether the description of Plaintiffs
performance at the panel interview was more direct in the
affidavits than in DPS’s previous filings. What matters is
that Plaintiff knew of the underlying conduct surrounding
his belated claims against Johnson and Gwaltney, and
simply failed to raise them until it was too late. See Gorsuch,
711 F.3d at 1240.
In regard to Plaintiffs allegation that Johnson and
Gwaltney’s affidavits substantiate all of his claims, the
Court finds such an assertion to be completely without
support. Rather, after reviewing the affidavits and the
relevant pleadings, the Court finds the opposite to be true.
Indeed, Plaintiff himself previously noted in his Response
to DPS’s Motion for Summary Judgment the “devastating
effect” that these affidavits have on his claims. (ECF No. 117

at 4,16.)'

35a
Appendix B
As to Plaintiff s contention that Judge Crews
erroneously failed to consider his Reply to DPS’s Response
to his February 8, 2019 Motion to Amend, the Court finds
such an argument to be unpersuasive. (See ECF No. 129 at
1, f 3; see also id. at 2, 6 ff 4, 11.) At the March 15, 2019
status conference, Judge Crews explained to Plaintiff that
he did not have Plaintiff s Reply when the Recommendation
was issued. (See ECF No. 133 at 12—13.) Judge Crews also
explained that he did not need to wait for the Reply before
issuing his order. (Id.) This explanation was reiterated in
Judge Crews’s Recommendation. (See ECF No. 125 at 1, n.l
(citing D.C.Colo.LCivR. 7.1 (nothing “precludes a judicial
officer from ruling on a motion at any time after it
is filed”)).)
Nonetheless, the Court has decided to consider
Plaintiffs Reply to determine whether it would have any
bearing on the disposition of his February 8, 2019 Motion to
Amend. In the Reply, Plaintiff discusses how he believes the
Court is awaiting the outcome of his appeal in a very similar
case, Vazirabadi v. Denver Health & Hosp. Auth., No. 17CV-01737-RBJ (the “Denver Health lawsuit”). (ECF No. 126
at 1, f 2; see also id. at 2, 4.) In the Denver Health lawsuit,
Plaintiff brought claims pursuant to Title VII and the ADEA
against Denver Health and Hospital Authority and others
for age and national origin discrimination after the hospital
did not hire him. (Denver Health, see ECF No. 112.)
On October 11, 2018, United States District Judge R.
Brooke Jackson denied Plaintiffs motion for leave to file an
amended complaint and granted the defendants’ motion for
summary judgment. (Id.) The next day, Plaintiff appealed
Judge Jackson’s order, and that appeal is currently before
the Tenth Circuit. (Denver Health, ECF No. 115.) Plaintiff
appears to argue that since Johnson and Gwaltney’s
affidavits were filed after he appealed, the Court should
allow him to amend his complaint. (ECF No. 126 at 2.)

36a
Appendix B
The rest of the Reply addresses Plaintiffs perceived
inconsistencies regarding when the panelist used their
interview notes, when these notes were discarded, and
whether a candidate ranked with the highest numerical
number is actually the top-ranked candidate. (Id. at 2—4.)
The Court finds the arguments contained in Plaintiffs
Reply to be meritless and concludes that they have no
bearing on the disposition of Plaintiffs February 8, 2019
Motion to Amend. As for the other documents that Plaintiff
cites to demonstrate good cause—namely, ECF Nos. 108,
117, 118, & 122—the Court has reviewed these filings de
novo and has likewise found that they do not demonstrate
the requisite showing of good cause needed for this Court to
modify the Scheduling Order pursuant to Rule 16(b).
In sum, Plaintiff has failed to show that the June 30,
2018 Deadline could not have been met despite his diligent
efforts. See Gorsuch, 711 F.3d at 1240. Rather, it is evident
from the record that Plaintiff knew of the information
underlying his February 8, 2019 Motion to Amend before he
initiated this action on May 15, 2017. (See ECF No. 118 at
144—49.) As a result, Plaintiff has failed to satisfy Rule 16(b)’s
good cause inquiry and therefore Plaintiff is not entitled to
leave to amend.6 See Gorsuch, 711 F.3d at 1240-41.
Accordingly, the Court adopts the Recommendation to the
extent is denies Plaintiffs February 8, 2019 Motion to
Amend.
D.

Rule 11 Sanctions

In its Response to Plaintiffs February 8, 2019 Motion
to Amend, DPS requested that the Court impose Rule 11
6 In the Recommendation, Judge Crews found that Plaintiffs February
8, 2019 Motion to Amend should also be denied because Plaintiff had
failed to satisfy Rule 15(a). (ECF No. 125 at 9—12.) Because the Court
has found that no good cause exists for amending the Scheduling
Order, it need not consider the Recommendation’s findings, nor
Plaintiffs objections, concerning whether Plaintiff has satisfied Rule
15(a). See Gorsuch, 771 F.3d at 1240—41.

37a
Appendix B
sanctions against Plaintiff and grant DPS its costs,
including reasonable attorney fees, incurred in responding
to the motion. (ECF No. 124 at 10—11.) In support, DPS
noted the following: “Vazirabadi already has one motion to
amend the second amended complaint before this Court,
and summary judgment is fully briefed. Yet, Vazirabadi has
filed another motion nearly identical to the one pending
before this Court that largely responds to [DPS’s Motion for
Summary Judgment].” (Id. at 11.) DPS also discussed how
Plaintiff “clearly understands” that his Motions to Amend
were untimely, and that the information included in his
February 8, 2019 Motion to Amend was “not new at all.” (Id.)
Judge Crews entertained DPS’s request and
determined that, although Plaintiffs Motions to Amend
Were “without merit,” he would not impose Rule 11
sanctions against Plaintiff. (ECF No. 125 at 12.) Judge
Crews, however, informed Plaintiff that he could be
sanctioned in the future if he continues to file motions in
this case that lack proper legal support. (Id.)
The Court notes that Judge Crews’s decision regarding
Rule 11 sanctions was non-dispositive and therefore it most
likely raises a Rule 72(a) issue. However, neither party has
objected to Judge Crews’s decision to not impose sanctions
against Plaintiff. (See ECF Nos. 129 & 134.) Thus, even if
Judge Crews’s decision regarding sanctions raises a Rule
72(b) issue, the Court would review Judge Crews’s Rule 11
analysis for clear error. See 2121 East 30th St., 73 F.3d at
1060 (“[A] party’s objections to the magistrate judge’s report
and recommendation must be both timely and specific to
preserve an issue for de novo review by the district court”)
(emphasis added).
The Court finds that Judge Crews’s analysis
concerning Rule 11 sanctions was thorough and sound, and
that there is no clear error on the face of the record. See
Bertolo v. Benezee, 2013 WL 1189508, at *1 (D. Colo. Mar.
22, 2013) (“In the absence of a timely and specific objection,

38a
Appendix B
‘the district court may review a magistrate . . .[judge’s]
report under any standard it deems appropriate’”) (quoting
Summers v. Utah, 927 F.2d 1165, 1167 (10th Cir. 1991),
affd, 601 F. App’x 636 (10th Cir. 2015).
Moreover, the Court would not grant DPS’s request in
the first place because a request for Rule 11 sanctions “must
be made separately from any other motion”—which DPS
has not done. Fed. R. Civ. P. 11(c)(2). Rule 11 also requires
proof that DPS first gave Plaintiff warning of its intent to
seek such sanctions and twenty-one days to withdraw the
offending fifing. See Fed. R. Civ. P. 11(c)(2). DPS has not
offered such proof. {See ECF No. 124 at 10—12.) Thus, even
if the Court were to find that Judge Crews’s decision
regarding sanctions implicates Rule 72(b), the Court would
still adopt the Recommendation and not impose Rule 11
sanctions upon Plaintiff.

V. MOTION FOR SUMMARY JUDGMENT
In the March 28, 2019 Recommendation (referred to as
the “Recommendation” for the remainder of this Section V),
Judge Crews recommended that DPS’s Motion for Summary
Judgment (ECF No. 116) be granted and Plaintiffs Second
Amended Complaint (ECF No. 67) be dismissed with
prejudice. (ECF No. 135.) In his April 11, 2019 Objection
(referred to as the “Objection” for the remainder of this
Section V), Plaintiff disputes various portions of the
Recommendation. (ECF No. 136.) After discussing the
controlling law, this Court will address Judge Crews’s
findings and Plaintiffs objections in turn.
A. National Origin and Age Discrimination
1.

Legal Standard

Plaintiff claims he was not hired because of his
national origin and age, and brings claims under Title VII
and the ADEA. (ECF No. 67 at 10-12.) Since Plaintiff offers
no direct evidence of impermissible discrimination, the
burden-shifting framework of McDonnell Douglas Corp. v.

39a
Appendix B
Green, 411 U.S. 792 (1973), governs his claims.
The McDonnell Douglas framework involves a threestep analysis. See Garrett v. Hewlett-Packard Co., 305 F.3d
1210, 1216 (10th Cir. 2002). “First, the plaintiff must prove
a prima facie case of discrimination. If the plaintiff satisfies
the prima facie requirements, the defendant bears the
burden of producing a legitimate, nondiscriminatory reason
for its action.” Id. “If the defendant makes this showing, the
plaintiff must then show that the defendant’s justification is
pretextual.” Kendrick v. Penske Transp. Servs., Inc., 220
F.3d 1220, 1226 (10th Cir. 2000).
To establish a genuine issue of material fact as to
pretext, Plaintiff “must demonstrate that [DPS’s] ‘proffered
non-discriminatory reason is unworthy of belief.’” Reinhardt
v. Albuquerque Pub. Sch. Bd. of Educ., 595 F.3d 1126, 1134
(10th Cir. 2010) (quoting Pinkerton v. Colo. Dep’t of Transp.,
563 F.3d 1052,1065 (10th Cir. 2009)). Plaintiff “can meet this
standard by producing evidence of ‘such weaknesses,
implausibilities,
inconsistencies,
incoherencies,
or
contradictions in [DPS’s] proffered legitimate reasons for its
action that a reasonable factfinder could rationally find them
unworthy of credence and hence infer that [DPS] did not act
for the asserted non-discriminatory reasons.” Reinhardt, 595
F.3d at 1134 (quoting Pinkerton, 563 F.3d at 1065); see also
Johnson v. Weld Cty., Colo., 594 F.3d 1202, 1211 (10th Cir.
2010). If Plaintiff “advances evidence upon which a factfinder
could conclude that [DPS’s] allegedly nondiscriminatory
reasons for the employment decisions are pretextual, the
court should deny summaiy judgment.” Reinhardt, 595 F.3d
at 1134.
2. Prima Facie Case of Discrimination
Judge Crews determined that Plaintiff failed to prove
even a prima facie case of age or national origin
discrimination. (See ECF No. 135 at 7—11.) Plaintiff objects
to this finding. (See ECF No. 136 at 3—4.) However, because

40a
Appendix B
the Court concludes that Plaintiff has not made a showing
of pretext, the Court need not resolve Plaintiffs objections
regarding his prima facie case.
3.

DPS’s Legitimate. Non-Discrim in a torv Reasons for
Not Hiring Plaintiff

In the Recommendation, Judge Crews determined that
DPS had satisfied its burden in providing legitimate, nondiscriminatory reasons for not hiring Plaintiff. (ECF No. 135
at 11.) In particular, the Recommendation noted that DPS
claims it did not hire Plaintiff because: “(1) he demonstrated
in his panel interview that he did not possess the requisite
facilitation skills for the PIE position; (2) he had gaps in his
professional employment history; [and] (3) [DPS]
determined that the candidates who were selected were
more qualified.” (Id.)
It is unclear whether Plaintiff objects to Judge Crews’s
finding that DPS had satisfied its burden in providing
legitimate, non-discriminatory reasons for not hiring
Plaintiff. (See ECF No. 136.) The Court notes, however, that
at this stage, DPS need only “explain its actions against the
plaintiff in terms that are not facially prohibited by Title
VII.” Jones v. Denver Post Corp., 203 F.3d 748, 753 (10th
Cir. 2000) (internal citations omitted). Having proffered
these justifications, the Court finds that DPS has met its
burden. As a result, the burden returns to Plaintiff to
demonstrate that DPS’s justifications are pretextual.
4. Pretext
In the Recommendation, Judge Crews concluded that
even if Plaintiff had satisfied the first step of the McDonnell
Douglas framework by proving a prima facie case of
discrimination, Plaintiffs claims would still fail under the
framework’s third step as he had failed to show that DPS’s
justifications for not hiring him were pretextual. (ECF No.
135 at 11.) In particular, Judge Crews found that Plaintiff
“has offered no competent evidence suggesting that [DPS’s]
reasons [for not hiring Plaintiff] were pretextual.” (Id.)

41a
Appendix B
Judge Crews noted that “[w]hile Vazirabadi points to
his 20 years of relevant experience and his written team
facilitation narrative description of the group discussion
he facilitated in his panel interview, the record is devoid of
any ‘facts showing an overwhelming disparity in
qualifications’ in his favor.” (Id. at 12 (internal citation
omitted) (quoting Johnson, 594 F.3d at 1211).)
Judge Crews then addressed Plaintiffs argument
concerning the destruction of the interview notes taken by
the panel members. Judge Crews found that “the fact that
Johnson collected and discarded all the panelists’ interview
notes sometime after the interviews, and before offering the
positions to the top-ranked candidates, [does not] support a
finding of pretext.” (ECF No. 135 at 13.) Judge Crews
discussed how “Johnson collected and discarded the
panelists’ notes as they pertained to all five candidates .. • y
[but] did not discard interview notes only as they pertained
to Vazirabadi.” (Id.)
In addition, Judge Crews noted how Plaintiffs
argument concerning the destruction of the interview notes
“is essentially an assertion that DPS is guilty of evidence
spoliation.” (Id.) Judge Crews observed that to “obtain
sanctions for spoliation of evidence, a party must first show
that ‘(1) a party ha[d] a duty to preserve evidence because it
knew, or should have known, that litigation was imminent,
and (2) the adverse party was prejudiced by the destruction
of the evidence.’” (Id. (quoting Burlington N. & Santa Fe Ry.
Co. v. Grant, 505 F.3d 1013, 1032 (10th Cir. 2007).)
Judge Crews determined, however, that “DPS
destroyed the interview notes at a time before its
preservation duty was triggered.” (ECF No. 135 at 14
(emphasis in original).) Specifically, Judge Crews found that
the “evidence in the record indicates that these notes were
destroyed sometime between September 10, 2015 .. . and
September 24, 2015,” but the “earliest date . . . DPS’s duty
to preserve could have been triggered” was October 20,2015.

42a
Appendix B
(Id. at 14-15.) Therefore, Judge Crews determined that
“DPS’s destruction of the interview notes does not raise any
triable issue of material fact affecting summary judgment.”
(Id. at 15.) For all these reasons, Judge Crews concluded
that Plaintiff failed to show that DPS’s justifications for not
hiring him were pretextual. (Id. at 11—15.)
Pursuant to a liberal reading of Plaintiffs Objection to
Judge Crews’s decision on his claim of national origin
discrimination, the Court understands Plaintiff to be arguing
that DPS’s reasons for not hiring him were pretextual based
on the following grounds: (1) DPS discarded the panel
interview notes and thus an adverse inference should be
applied against it to remedy the spoliation; (2) DPS presented
contradictoiy testimony; (3) DPS’s bilingual question caused
a disparate impact; and (4) Plaintiff was more qualified than
the candidates who were ultimately hired for the two PIE
positions. (See ECF No. 136.) The Court will address each
argument in turn.
a. Adverse Inference Sanction
“Even in cases where [schools] destroy evidence they
are required to retain under 29 C.F.R. § 1602.[40], plaintiffs
must be diligent in the defense of their own interests, and
should seek sanctions under Federal Rule of Civil Procedure
37 to remedy any prejudice caused by spoliation.” Turner,
563 F.3d at 1149 (internal quotations marks omitted).
“When a plaintiff fails to seek sanctions under Rule 37 and
thus forecloses access to the substantial weaponry in the
district court’s arsenal, the plaintiffs only remaining option
is to seek sanctions under a spoliation of evidence theory.”
Id. (internal quotation marks omitted). Thus, parties
proceed at their own peril in choosing not to seek lesser
discovery-related sanctions at an earlier phase of litigation,
then later requesting an adverse inference, as Plaintiff does
here. See Mueller u. Swift, 2017 WL 2362137, at *5 & n.4 (D.
Colo. May 31, 2017).

43a
Appendix B
“Spoliation sanctions are proper when ‘(1) a party has
a duty to preserve evidence because it knew, or should have
known, that litigation was imminent, and (2) the adverse
party was prejudiced by the destruction of the evidence.”’
Turner, 563 F.3d at 1149 (quoting Grant, 505 F.3d at 1032).
“But if the aggrieved party seeks an adverse inference to
remedy the spoliation, it must also prove bad faith.” Id.
“Mere negligence in losing or destroying records is not
enough because it does not support an inference Of
consciousness of a weak case.” Id. (quoting Aramburu v.
Boeing Co., 112 F.3d 1398, 1407 (10th Cir. 1997)).
In the Objection, Plaintiff argues that Judge Crews
erred in finding that a spoliation sanction should not be
imposed against DPS because “regardless of any early, late
or no notification to DPS” that litigation was imminent, “29
C.F.R. § 1602.40 and DPS GBA policy” required DPS to
preserve the interview notes for two years. (ECF No. 136 at
4.) Plaintiff also argues that DPS should have known about
its duty to preserve the interview notes because it is a
“sophisticated litigator.” (Id. at 5—6.) In addition, Plaintiff
argues that an adverse inference sanction is proper because
he was prejudiced by destruction of the interview notes,
which DPS destroyed “intentionally and in bad faith.” (Id.
at 6-8.)
It is clear Plaintiff has misinterpreted the first prong
that must be satisfied in order to obtain spoliation sanctions.
Plaintiff does not dispute Judge Crews’s findings that the
interview notes were destroyed before September 24, 2015,
and that the earliest date DPS’s duty to preserve could have
been triggered was October 20, 2015. (See id. at 2, 4-8, 17.)
Instead, he argues that it matters not whether DPS knew, or
should have known, that litigation was imminent because
DPS violated a federal regulation and “DPS GBA policy.”
This is clearly not the standard. See Turner, 563 F.3d at 1149.
Since it is undisputed that DPS discarded the interview notes
before it knew, or should have known, litigation was
imminent, spoliation sanctions are not appropriate.

44a
Appendix B
Although more is surely not needed in this regard, the
Court notes that the record does not support the finding that
Plaintiff was prejudiced by the destruction of the interview
notes. According to Plaintiff, the interview notes were “very
extensive hiring documentation that proves Vazirabadis
excellent panel interview, as the highest ranked candidate
for hiring.” (ECF No. 136 at 6.) But there is simply nothing
in the record to support this statement, other than Plaintiffs
own subjective opinion about how he performed. Indeed, the
record amply supports the finding that Plaintiff preformed
poorly in his panel interview.
Moreover, the record is likewise devoid of anything
that could support the notion that DPS or the panel
interviewers acted in bad faith when they discarded the
interview notes. At the most, the record supports the finding
that they were negligent in their conduct, but “[m]ere
negligence in losing or destroying records is not enough
because it does not support an inference of consciousness of
a weak case.” Turner, 563 F.3d at 1149. As a result of the
foregoing, the Court denies Plaintiffs request for spoliation
sanctions, including an adverse inference.
b. Sham Affidavits
In order to show that DPS’s reasons for not hiring him
were pretextual, Plaintiff argues that Johnson and
Gwaltney produced “sham affidavits.” (ECF No. 136 at 811.) In particular, Plaintiff argues that through their
depositions and affidavits, “Johnson and Gwaltney present
three different versions of hiring records destruction.” (Id.
at 2, 9, 17.) Plaintiff asserts that “by presenting Johnson
and Gwaltney’s contradictory affidavits, [DPS] is
attempting to create a sham fact issue—a sham fact that
Vazirabadi did poorly in [his] panel interview.” (Id. at 9
(emphasis omitted).) Plaintiff claims that Judge Crews
“erred in neither acknowledging nor considering
Vazirabadis arguments in support of Johnson and
Gwaltney’s sham affidavits.” (Id. at 10.)

45a
Appendix B

Plaintiffs allegation that Johnson and Gwaltney
produced “sham affidavits” is based on the following
sequence of events. (See ECF No. 122 at 7—8.) On September
10, 2015, Plaintiffs panel interview took place. (ECF No.
116-1 at 2, TJ 9.) After the last panel interview on September
21, 2015, the panelists ranked the candidates. (ECF No. 122
at 7 (citing ECF No. 116-1 at 3, f 11; ECF No. 116-5 at 2, f
6).) In his deposition, Gwaltney acknowledged that he made
notes on his two-page interview sheet during Plaintiffs
panel interview. (ECF No. 122 at 14; see also id. at 12-13.)
At the bottom of the interview sheet’s second page,
there is an “Overall Ranking” index from “1” to “9”—with “1”
being categorized as “Fail” and “9” being categorized as
“Pass.” (Id. at 13.) When asked whether he used the ranking
index during the September 21 discussions, Gwaltney
replied: “I believe I used that.” (Id. at 15.) According to
Plaintiff, Gwaltney thus confirmed that he used the
interview sheet he took notes on throughout Plaintiffs
September 10 panel interview during discussions that took
place on September 21. (Id. at 7.)
Plaintiff claims that later in his deposition, Gwaltney
“totally recants” his statement that he used the interview
notes pertaining to Plaintiff during the September 21
discussions. (Id.) During the deposition, Plaintiff inquired
as to when Gwaltney discarded the interview notes. (Id. at
7, 11.) Gwaltney responded that he “[does not] remember
specifically” when he shredded the notes, but that it was
“[s]hortly after the interview.” (Id.)
Based on these sequence of events, Plaintiff claims that
“Gwaltney is making very contradictory statements, where
on one hand he claims shortly after Vazirabadi panel
interview on September 10, 2015, he ‘shredded’ Vazirabadi’s
interview notes. On the other hand, he also admits using
Vazirabadi’s two-page interview sheet on that Sep. 21, 2015
meeting—11 days after Vazirabadi’s interview.” (Id. at 8

46a
Appendix B
(internal citation omitted) (emphasis in original).)
Next, Plaintiff points to a sentence contained in DPS’s
Reply in Support of its Motion for Summary Judgment,
wherein DPS stated: “[Johnson] collected and discarded all
the panelists’ notes as soon as the interviews were complete
because once the team had ranked the candidates, she had
all the data she needed to make a hiring decision.”7 {Id.
(quoting ECF No. 121 at 3).)
Based on the forgoing events, Plaintiff discusses how
“Johnson and Gwaltney present three different versions of
hiring records destruction”:
[DPS’s statement that Johnson] collected and
discarded all the panelists’ notes as soon as the
interviews were complete...” 100% contradicts with
both versions of Mr. Gwaltney’s deposition
narratives. In one version, Mr. Gwaltnej7 “shredded”
Vazirabadi’s interview notes shortly after Vazirabadi’s
interview on September 10, 2015. Mr. Gwaltney did
not give his notes to Ms. Johnson for its destruction. In
another version, Mr. Gwaltney, again, without giving
Vazirabadi’s interview notes to Ms. Johnson to be
“discarded”, Mr. Gwaltney stated he “used’ it on
September 21, 2015. By simple fact checking, [DPS]
should have noticed Ms. Johnson and Mr. Gwaltney
statement are contradictory with no factual basis for
Court’s filing.
(ECF No. 122 at 8 (emphasis in original) (internal citations
omitted).) Plaintiff alleges that by presenting Johnson and
Gwaltney’s contradictory, “sham affidavits,” DPS is
“attempting to create a sham fact...that Vazirabadi did
poorly in [his] panel interview.” (ECF No. 136 at 9
(emphasis omitted).)

7 In support of this statement, DPS cites Johnson’s deposition
testimony. (ECF No. 121 at 3 (citing ECF No. 121-1 at 17).) Although
the testimony DPS references discusses how Johnson had all of the
data she needed to make a hiring decision, it does not address who
destroyed the interview notes or when. (ECF No. 121-1 at 17.)

47a
Appendix B
“Sham affidavits, though ‘unusual,’ arise when a
witness submits an affidavit that contradicts the witness’s
prior testimony.” Knitter v. Corvias Military Living, LLC, 758
F.3d 1214, 1218 n.3 (10th Cir. 2014) (quoting Law Co. v.
Mohawk Const. & Supply Co., 577 F.3d 1164, 1169 (10th Cir.
2009)). Although “[a]n affidavit may not be disregarded solely
because it conflicts with the affiant’s prior sworn
statements,” the Court may nonetheless disregard a
conflicting affidavit if it “constitutes an attempt to create a
sham fact issue.” Mohawk, 577 F.3d at 1169; see also
Knitter, 758 F.3d at 1218 n.3. In determining whether
an affidavit creates a sham fact issue, [courts]
consider whether: “(1) the affiant was cross-examined
during his earlier testimony; (2) the affiant had
access to the pertinent evidence at the time of his
earlier testimony or whether the affidavit was based
on newly discovered evidence; and (3) the earlier
testimony reflects confusion which the affidavit
attempts to explain.”
Mohawk, 577 F.3d at 1169 (quoting Ralston v. Smith &
Nephew Richards, Inc., 275 F.3d 965, 973 (10th Cir. 2001)).
This is clearly not an instance of a witness submitting
an affidavit that contradicts the witness’s prior testimony.
See Knitter, 758 F.3d at 1218 n.3. Notably, Plaintiff does
not once point to where Johnson and Gwaltney’s affidavits
conflict with their prior sworn statements. (See ECF No. 136
at 8—11.) Instead, the alleged “inconsistent statements”
Plaintiff points to solely occurred during earlier deposition
testimony and a sentence in a Reply filing. (See id.)
Moreover, the affidavits do not attempt to explain any
confusion that could potentially arise from these alleged
inconsistent statements. (See ECF No. 116-1 at 1—4; ECF
No. 116-5.) Indeed, the affidavits do not once mention the
interview notes or when or how they were discarded. (See
id.) Interestingly, in Plaintiffs analysis of the third
consideration of the sham affidavit doctrine—whether the
earlier testimony reflects confusion which the affidavit

48a
Appendix B
attempts to explain—Plaintiff states “[Johnson and
Gwaltney’s] earlier testimony does not reflect [ ] confusion
which the affidavits] attempt ] to explain.” (ECF No. 136
at 9 (alteration incorporated) (emphasis added).) In sum,
this is clearly not an issue impheating the sham affidavit
doctrine.
To the extent Plaintiff is discussing these alleged
inconsistent statements to show that DPS’s reasons for not
hiring him were pretextual, the Court finds Plaintiffs
argument to be largely without merit. To establish a
genuine issue of material fact as to pretext, Plaintiff “must
demonstrate that [DPS’s] proffered non-discriminatory
reason is unworthy of belief ... by producing evidence of
such
weaknesses,
implausibilities,
inconsistencies,
incoherencies, or contradictions in [DPS’s] proffered
legitimate reasons.” Reinhardt, 595 F.3d at 1134 (internal
quotation marks omitted). Plaintiff clearly has not made
such a demonstration. Notably, Plaintiff does not explain
how the alleged inconsistent statements contradict DPS’s
proffered reasons for not hiring him. Even if the Court
generously construes Plaintiffs argument and finds that
there is an inconsistency as to whether Gwaltney or Johnson
destroyed the interview notes, and whether that event took
place before or after the September 21 discussion, the Court
finds that this would not amount to a genuine issue of
material fact as to pretext.
c. Bilingual Questioning
In his Objection, Plaintiff claims that Judge Crews entirely
ignored his disparate impact claim. (ECF No. 136 at 6.)
However, Plaintiff did not raise his disparate impact claim
in his Response to the Motion for Summary Judgment or in
his Surreply. (See ECF Nos. 117 & 122.) Nonetheless,
Plaintiff claims that he has “continuously, [and] in many
filings, made arguments that DPS subjects 100% of its job
applicants to bilingual questioning,” though he fails to cite
or reference those filings. (ECF No. 136 at 11.) Thus, the

49a
Appendix B
issue of disparate impact was not before the Magistrate
Judge on summary judgment, and is deemed forfeited.
United States v. Garfinkle, 261 F.3d 1030, 1031 (10th Cir.
2001) (“In this circuit, theories raised for the first time in
objections to the magistrate judge’s report are deemed
waived”); see also Pevehouse v. Scibana, 229 F. App’x 795,
796 (10th Cir. 2007).
Nevertheless, the Court will briefly address the
arguments Plaintiff raised in the Objection regarding his
disparate impact claim. (See ECF No. 136 at 11—12.) “To
survive summary judgment on an individual claim for
disparate impact requires three steps”;
First, [Plaintiff] must establish a prima facie case
that (a) an employment practice (b) causes a
disparate impact on a protected group. Second, if
[Plaintiff] presents a prima facie case, the burden will
shift to [DPS] to demonstrate that the challenged
practice is job related for the position in question
and consistent with business necessity. Third,
assuming [DPS] shows business necessity, [Plaintiff]
may still prevail by showing that the employer
refuses to adopt an available alternative employment
practice that has less disparate impact and serves the
employer’s legitimate needs.
Tabor v. Hilti, Inc., 703 F.3d 1206, 1220-21 (10th Cir. 2013)
(internal citations and quotation marks omitted). It is
abundantly clear that Plaintiff has failed to establish a
prima facie case that DPS’s bilingual questioning causes a
disparate impact on a protected group.
In the Objection, Plaintiff appears to allege that DPS’s
employment practice of asking applicants whether they are
bilingual in a language causes a disparate impact on various
protected groups. (See ECF No. 136 at 11—12.) Plaintiff cites
statistics about the number of DPS applicants who
identified themselves as being bilingual in either “Amharic,”
“Arabic,” “Somali,” or an unlisted language. (Id. at 12.) That
is the extent of Plaintiffs support for his disparate impact

50a
Appendix B
claim. (See id. at 11-12.) Notably, Plaintiff does present any
evidence to support his claim that DPS’s question about
whether an applicant is bilingual in a language causes a
disparate impact on any group. (See id.) Thus, Plaintiff has
failed to establish even a prima facie case of disparate
impact discrimination. See Tabor, 703 F.3d at 1220.
Therefore, for this additional reason, Plaintiffs disparate
impact claim cannot survive summary judgment. See id.
To the extent Plaintiff is discussing DPS’s bilingual
question to show that DPS’s reasons for not hiring him were
pretextual, the Court finds such an argument to be wholly
without merit. To establish a genuine issue of material fact
as to pretext, Plaintiff “must demonstrate that [DPS’s]
proffered non-discriminatory reason is unworthy of belief.”
Reinhardt, 595 F.3d at 1134. Plaintiff clearly has not made
such a demonstration as Plaintiff does not attempt to
explain how DPS’s bilingual question illustrates
“weaknesses,
implausibilities,
inconsistencies,
incoherencies, or contradictions in [DPS’s] proffered
legitimate reasons” for not hiring him. Id.
d. Plaintiffs Qualifications
In his Objection, Plaintiff argues that Judge Crews
mistakenly determined that DPS’s justifications were not
pretextual because the record was devoid of any facts
showing that Plaintiff was more qualified than the
applicants DPS ultimately hired. (ECF No. 136 at 16—17.)
In support, Plaintiff discusses how: (1) Johnson’s affidavit
confirms that Plaintiff worked for over 20 years in the
engineering profession, with experience in both process
improvement and project management; (2) his cover letter
reviewed in detail how his past projects correlated with the
“essential functions” of a PIE, which Johnson commented on
approvingly during his phone interview; (3) he performed
well in response to the Facilitation Question, as displayed
in his “Team Facilitation Narrative”; (4) Judge Crews failed
to examine his cover letter and resume; (5) in comparing his

51a
Appendix B
cover letter and resume with those of the hired candidates,
“his qualification, unequivocally, in content, nature of the
projects and accomplishments, is well above both hired
candidates”; and (6) he has more applicable experience for
the PIE position than the hired candidates. (Id. (emphasis
omitted).)
A court “will draw an inference of pretext where the
facts assure [the court] that the plaintiff is better qualified
than the other candidates for the position.” Santana v.
City & Cnty. of Denver, 488 F.3d 860, 865 (10th Cir. 2007)
(internal quotation marks omitted). The Tenth Circuit has
“cautioned that pretext cannot be shown simply by
identifying
minor
differences
between
plaintiffs
qualifications and those of successful applicants, but only by
demonstrating an overwhelming merit disparity.” Id.
(internal quotation marks omitted) (emphasis added).
Moreover, it is not the Court’s “role to act as a super
personnel department that second guesses employers’
business judgments.” Id. (internal quotation marks omitted).
Under these standards, the differences between
Plaintiffs and the hired candidates qualifications does not
come close to suggesting pretext. Nguyen has a Bachelor of
Science in Materials Science and Engineering from Cornell
University’s College of Engineering and had over six years
of relevant engineering experience at CoorsTek and Surmet
Corporation, with no gaps in his professional employment.
(ECF No. 116-1 at 17—18.) Schroeder has a Bachelor in
Science in Industrial Engineering from the University of
Michigan’s College of Engineering and had over five years
of relevant engineering experience at Intel Corporation with
no gaps in her professional employment. (Id. at 19—20.)
Plaintiff has a Bachelor of Science in Industrial
Engineering from the University of Wisconsin—Stout and
over 20 years of engineering experience. (Id. at 15—16.)
While it is undisputed that Plaintiff had many years of
relevant experience, his sole occupation for the two years

52a
Appendix B
before he applied for the PIE position had been as an UberX
driver. (Id. at 2, 15 f 7.) Moreover, although Plaintiff worked
as a project engineer for Cablenet Wiring Products from
July 2005 through September 2013 and held various
engineering positions at eight different companies from
1987 until 2001, he had a gap in professional employment
from April 2001 until May 2005 when he served as an
unpaid caregiver. (Id. at 15-16.) In addition, when
comparing Plaintiffs cover letter and resume with that of
Schroeder and Nguyen, the Court simply cannot conclude
that there is an “overwhelming merit disparity.” Santana,
488 F.3d at 865. (Compare ECF No. 116-1 at 13—16, with id.
at 17-20.)
The record also provides that an important
qualification for the position was the applicant’s facilitation
skills. (ECF No. 116-1 at 2, f f 4, 8; see also id. at 11-12.)
Plaintiff has made no argument that he was
overwhelmingly more qualified than Schroeder or Nguyen
in this regard, nor does the record support such a
proposition. (See, e.g., ECF No. 116 at 2-3, f 9; ECF No. 1165 at 1, f 4; ECF No. 116-6 at 8-9.) Indeed, the record firmly
supports the finding that Plaintiff demonstrated inferior
facilitation skills when compared to Schroeder and Nguyen.
(See, e.g., ECF No. 116 at 2-3, f f 9-12; ECF No. 116-5 at 12, ff 4-6.) Notably, this finding is only countered by
Plaintiffs own subjective opinion that he exemplified
stronger facilitation skills than DPS contends. (See ECF No.
117 at 25-26.)
In sum, when considering the qualifications of all three
applicants, the Court finds that Schroeder and Nguyen’s
qualifications were arguably superior, and certainly not
overwhelmingly inferior, to Plaintiffs. As a result, Plaintiff
is not entitled to an inference of pretext. See Santana, 488
F.3d at 865.

53a
Appendix B
5. Failure to Pursue Age Discrimination Claim in Objection
The Court notes that Plaintiff does not appear to
dispute the Recommendation’s findings in regard to his age
discrimination claim. (See ECF No. 136.) Plaintiffs
Objection does not reference his age discrimination claim,
the ADEA, or Judge Crews’s findings in regard to the claim.
(See id.) Notably, in his conclusion, Plaintiff discusses how
he “was refused hiring because of his Iranian national
origin,” but makes no reference to his age or DPS’s alleged
age discrimination. (Id. at 19; see also id. at 15,7.10.) As a
result, the Court reviews Judge Crews’s analysis of
Plaintiffs ADEA claim for clear error, and finds none. See
Bertolo, 2013 WL 1189508, at *1 (“In the absence of a timely
and specific objection, ‘the district court may review a
magistrate . . .[judge’s] report under any standard it deems
appropriate’”) (quoting Summers, 927 F.2d at 1167).
Accordingly, the Court adopts the Recommendation to the
extent it grants summary judgment in DPS’s favor on
Plaintiffs ADEA claim.8
6.

Summary of Section V

DPS produced legitimate, non-discriminatory reasons
for its decision not to hire Plaintiff. Because Plaintiff failed
to put forth sufficient evidence to create a genuine issue of
material fact on the issue of pretext, the Court adopts the
Recommendation to the extent it grants DPS’s Motion for
Summary Judgment. As a result, the Court will direct the
Clerk of the Court to enter judgment in favor of DPS on all
claims and terminate this case. Therefore, Plaintiffs
Objection to Denial of Motion to Compel (ECF No. 107) is
overruled as moot and Plaintiffs Motion for Leave to File
Surreply (ECF No. 113) is denied as moot.

8 In any event, the foregoing analysis makes clear that Plaintiffs ADEA
claim would likewise not survive summary judgment as he has failed to
show that DPS’s justifications for not hiring him were pretextual.

54a
Appendix B
B.

The Doe Defendants

In the caption of his Second Amended Complaint,
Plaintiff listed as putative Defendants in this action DPS,
the Doe Corporations, the Doe Entities, and the Doe
Individuals. (ECF No. 67 at 1.) In his Recommendation,
Judge Crews recommended that the Doe Corporations and
Doe Entities be dismissed without prejudice. (ECF No. 135
at 15-16.)
In discussing why the “various John and Jane Does”
should be dismissed from this action, Judge Crews
discussed how there is “no provision in the Federal Rules of
Civil Procedure for naming fictitious or unknown parties in
a lawsuit.” (Id. at 15—16, n. 8—9 (citing Watson v. TJnipress,
Inc., 733 F.2d 1386, 1388 (10th Cir. 1984); Coe v. U.S. Dist.
Court for Dist. of Colo., 676 F.2d 411, 415 (10th Cir. 1982)).)
Judge Crews recognized that Rule 10(a) of the Federal Rules
of Civil Procedure specifies that the “title of a complaint
must name all the parties.” (ECF No. 135 at 15-16, n. 8.)
Judge Crews then concluded that “[bjecause unnamed
parties are not permitted by the Federal Rules, and because
Vazirabadi has not identified or named these unknown
defendants, these various John and Jane Does should be
dismissed from the action.” (Id)
In his Objection, Plaintiff does not dispute Judge
Crews’s analysis regarding the Doe defendants, nor his
dismissal of the Doe Corporations or the Doe Entities. (See
ECF No. 136.) As a result, the Court reviews Judge Crews’s
analysis of the Doe defendants for clear error and finds
none. See 2121 East 30th St., 73 F.3d at 1060 (“[A] party’s
objections to the magistrate judge’s report and
recommendation must be both timely and specific to
preserve an issue for de novo review by the district court”)
(emphasis added); see also Bertolo, 2013 WL 1189508, at *1
(In the absence of a timely and specific objection, ‘the
district court may review a magistrate .. . [judge’s] report
under any standard it deems appropriate’”) (quoting

55a
Appendix B
Summers, 927 F.2d at 1167).
While Judge Crews ultimately recommended that the
Court dismiss the Doe Corporations and the Doe Entities,
but not the Doe Individuals, it is clear from his analysis that
he intended to likewise recommend the dismissal of the Doe
Individuals. (See ECF No. 135 at 15—16, & n.8 (“these
various John and Jane Does should be dismissed from the
action”)-) This finding is supported by the fact that Judge
Crews did not recommend that the Doe Individuals remain
as party defendants in this action. (See id. at 15—16.)
Accordingly, the Court adopts the Recommendation as
modified and dismisses without prejudice Plaintiffs claims
against the Doe Corporations, the Doe Entities, and the Doe
Individuals.
VII. CONCLUSION
For the reasons set forth above, the Court ORDERS as
follows:
1.

The March 6, 2019 Recommendation (ECF No. 125)
is ADOPTED in its entirety;

2.

Plaintiffs March 12, 2019 Objection (ECF No. 129)
is OVERRULED;

3.

Plaintiff s November 30, 2018 Motion to Amend (ECF
No. 108) is DENIED;
Plaintiffs February 8, 2019 Motion to Amend (ECF
No. 118) is DENIED;

4.
5.

The March 28, 2019 Recommendation (ECF No. 135)
is ADOPTED AS MODIFIED;

6.

Plaintiffs April 11, 2019 Objection (ECF No. 136) is
OVERRULED;

7.

Defendant DPS’s Motion for Summary Judgment
(ECF No. 116) is GRANTED as to all claims;

8.

Plaintiffs claims against Defendants Doe Individuals
are DISMISSED WITHOUT PREJUDICE;

56a
Appendix B
9.

Plaintiffs claims against Defendants Doe Corporations
are DISMISSED WITHOUT PREJUDICE;

10.

Plaintiffs claims against Defendants Doe Entities are
DISMISSED WITHOUT PREJUDICE;

11.

Plaintiffs Objection to Denial of Motion to Compel
(ECF No. 107) is OVERRULED AS MOOT;

12.

Plaintiffs Motion for Leave to File Surreply (ECF
No. 113) is DENIED AS MOOT;

13.

The Clerk of the Court shall enter judgment in favor
of Defendant DPS and against Plaintiff, and shall
terminate this case; and

14.

Each party shall bear his or its own costs.
Dated this 25th day of June, 2019.
BY THE COURT:
s/
William J. Martinez
United States District Judge

57a
Appendix C

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
Appellate Case: No. 19-1245
(D.C. No. 1:17-CV-01194-WJM-SKC)(D. Colo.)
Filed: August 24, 2020
ALIREZA VAZIRABADI,
Plaintiff - Appellant,
v.
DENVER PUBLIC SCHOOLS; JOHN
AND JANE DOES 1 THROUGH 10;
JOHN AND JANE DOE
CORPORATIONS 1 THROUGH 10;
OTHER JOHN AND JANE DOE
ENTITIES 1 THROUGH 10, all whose
true names are unknown,
Defendants - Appellees.
ORDER
Before TYMKOVICH, Chief Judge, EBEL, andHARTZ,
Circuit Judges.
Appellant’s petition for rehearing is denied. The
petition for rehearing en banc was transmitted to all of the
judges of the court who are in regular active service. As no
member of the panel and no judge in regular active service
on the court requested that the court be polled, that
petition is also denied.
Entered for the Court
s/
CHRISTOPHER M. WOLPERT, Clerk

58a
Appendix D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 1:17-CV-01194-WJM-MEH
Filed: October 10, 2017
ALIREZA VAZIRABADI,
Plaintiff,
v.
DENVER PUBLIC SCHOOLS; JOHN AND JANE DOES 1
THROUGH 10; JOHN AND JANE DOE CORPORATIONS
1 THROUGH 10; OTHER JOHN AND JANE DOE
ENTITIES 1 THROUGH 10, all whose true names are
unknown,
Defendants.
RECOMMENDATION OF UNITED STATES
MAGISTRATE JUDGE
Michael E. Hegarty, United States Magistrate Judge.
Plaintiff Alireza Vazirabadi (“Vazirabadi”), proceeding pro
se, initiated this employment discrimination action against
Denver Public Schools (“DPS”) and the individual
Defendants, Tom Boasberg (“Boasberg”) and Terri Sahli
(“Sahli”) (collectively, “DPS Defendants”) on May 15, 2017.
Vazirabadi filed the operative First Amended Complaint as
a matter of course on July 14, 2017 alleging essentially that
Defendants violated his rights under the Fourteenth
Amendment to due process and equal protection of the law
and under the First Amendment’s Establishment Clause
(religious discrimination) bj' engaging in “extreme vetting”
of his employment application, and violated Title VII of the
Civil Rights Act of 1964, as amended (“Title VH”) based on
Vazirabadi’s national origin. See First Amended Complaint
(“FAC”), ECF No. 26.
The DPS Defendants filed the present motion to
dismiss in response to the FAC on July 28, 2017, arguing

59a
Appendix D
that Vazirabadi’s facts support neither his constitutional
claims nor his Title VII national origin claim and he has
failed to exhaust administrative remedies as to any claim
for religious discrimination under Title VII. Construing the
allegations liberally and taking them as true, the Court
finds that Vazirabadi fails to state violations of his
constitutional rights, but plausibly states a violation of Title
VII and, thus, the Court recommends that the DPS
Defendants’ motion be granted in part and denied in part.
I.

Statement of Facts

The following are factual allegations (as opposed to
legal conclusions, bare assertions, or merely conclusory
allegations) made by Vazirabadi in the operative FAC,
which are taken as true for analysis under Fed. R. Civ. P.
12(b)(6) pursuant to Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009).
On or about August 3, 2015, Vazirabadi responded to
the DPS Defendants’ job advertisement for the position of
Process Improvement Engineer (“PIE”), which required five
years’ experience. His response included submission of his
Industrial Engineer resume with a two-page cover letter
itemizing the job requirements against his ten-plus years of
direct experience. The advertised position did not require or
prefer bilingual applicants. Vazirabadi registered at
careers.dpskl2.org to submit his resume and cover letter
and was asked to answer certain questions. For example,
from a pull-down menu listing “Arabic,” “Somali,”
“Amharic,” and “Swahili” languages, Vazirabadi was asked
in which of the languages he is bilingual. The menu also
stated: “If your language was not fisted above... please
indicate it here.” Vazirabadi entered ‘Tarsi/Persian” as his
other language, which Vazirabadi believes identified him as
Iranian and Muslim.
A report attached to the FAC reflects that in 2014, DPS
had enrolled a total of 87,389 students and, of those

60a
Appendix D
students, 1,605 (or 1.84%) were “Non-Exited” English
Language Learners (“ELLs”). FAC Ex. 2.1 The top five
languages (making up the majority of the ELLs) spoken
were Arabic, Vietnamese, Somali, Nepali, and Amharic. Id.
On or about August 31, 2015, Vazirabadi had his first
interview by telephone with DPS’s hiring manager, Karen
J., who states she was “drawn” to his application by his
“meticulous” itemization of job requirements against
matched experience. Karen J. told Vazirabadi that he would
be considered for two open PIE positions. On or about
September 10, 2015, Vazirabadi met with Karen J. and
DPS’s Process Improvement team members, Jeff G., Katie
W., and Andrea M., for a sixty-minute in-person panel
interview. Vazirabadi believed he had great interaction and
chemistry with the panel members. During the last ten
minutes of the interview, the panel members asked
Vazirabadi to facilitate the meeting for an outside group
activity. Vazirabadi believed he performed “greatly.” Just
before he left the interview room, Jeff G. asked him, “do you
like to be called Alireza or Ah?” Vazirabadi noticed the other
panel members awaiting his response and he answered,
“Ah.” Vazirabadi considered this question to be a positive
indication of his interview performance. Then, on
September 15, 2015, Vazirabadi met with Defendant Sahh,
Director of Enterprise Risk Management and Process
Improvement, for a thirty-minute interview.

1 The Court may consider certain documents without converting a Rule
12(b)(6) motion to one for summary judgment, including documents
attached to the complaint and “documents referred to in the complaint
if the documents are central to the plaintiffs claim and the parties do
not dispute the documents’ authenticity.” Smith v. United States, 561
F.3d 1090, 1098 (10th Cir. 2009) (citation omitted).

61a
Appendix D
On or about September 23, 2015, Karen J. emailed
Vazirabadi to inform him that “it was a tough decision and,
in the end, we decided on other candidates.” Reading this
email made Vazirabadi feel emotionally and physically sick,
numb, humiliated, and rejected, because he was “100% sure”
he had the perfect experience and educational background
for the position and performed well in the interviews.
The candidates hired by DPS for the PIE positions were
a “28-year-old Asian male” and a “29-to-33-year-old” female
whose national origin is not indicated.
II.

Legal Standards2
A.

Dismissal under Fed. R. Civ. P. 12(b)(6)

“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to ‘state
a claim to relief that is plausible on its face.’” Iqbal, 556 U.S.
at 678 (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007)). Plausibility, in the context of a motion to dismiss,
means that the plaintiff pled facts which allow “the court to
draw the reasonable inference that the defendant is liable
for the misconduct alleged.” Id. Twombly requires a twoprong analysis. First, a court must identify “the allegations
in the complaint that are not entitled to the assumption of
truth,” that is, those allegations which are legal conclusions,
bare assertions, or merely conclusory. Id. at 678-80. Second,
the Court must consider the factual allegations “to determine
if they plausibly suggest an entitlement to relief.” Id. at 681.
If the allegations state a plausible claim for relief, such
claim survives the motion to dismiss. Id. at 680.
2 In addition to the standards set forth here, Defendants argued
Vazirabadi failed to exhaust his administrative remedies for any claim
for religious discrimination under Title VII, which would be analyzed
under Fed. R. Civ. P. 12(b)(1). However, Vazirabadi confirmed in his
response brief that he does not allege a claim for religious
discrimination under Title VII. Resp. 4. Therefore, the Court’s
discussion need not include an analysis pursuant to Rule 12(b)(1).

62a
Appendix D
Plausibility refers “to the scope of the allegations in a
complaint: if they are so general that they encompass a wide
swath of conduct, much of it innocent, then the plaintiffs
‘have not nudged their claims across the line from
conceivable to plausible.’” Khalik v. United Air Lines, 671
F.3d 1188, 1191 (10th Cir. 2012) (quoting Robbins v. Okla.,
519 F.3d 1242, 1247 (10th Cir. 2008)). “The nature and
specificity of the allegations required to state a plausible
claim will vary based on context.” Kan. Penn Gaming, LLC
v. Collins, 656 F.3d 1210, 1215 (10th Cir. 2011). Thus, while
the Rule 12(b)(6) standard does not require that a plaintiff
establish-a prima facie case in a complaint, the elements of
each alleged cause of action may help to determine whether
the plaintiff has set forth a plausible claim. Khalik, 671 F.3d
at 1191.
However, “[t]hreadbare recitals of the elements of a
cause of action, supported by mere conclusory statements,
do not suffice.” Iqbal, 556 U.S. at 678. The complaint must
provide “more than labels and conclusions” or merely “a
formulaic recitation of the elements of a cause of action,”
so that “courts ‘are not bound to accept as true a legal
conclusion couched as a factual allegation.”’ Twombly, 550
U.S. at 555 (quoting Papasan u. Allain, 478 U.S. 265, 286
(1986)). “Determining whether a complaint states a
plausible claim for relief will ... be a context-specific task
that requires the reviewing court to draw on its judicial
experience and common sense.” Iqbal, 556 U.S. at 679.
“[W]here the well-pleaded facts do not permit the court to
infer more than the mere possibility of misconduct,” the
complaint has made an allegation, “but it has not shown
that the pleader is entitled to relief.” Id. (quotation marks
and citation omitted).
B. Treatment of a Pro Se Plaintiffs Complaint
A federal court must construe a pro se plaintiffs
“pleadings liberally, applying a less stringent standard than
is applicable to pleadings filed by lawyers. [The] court,

63a
Appendix D
however, will not supply additional factual allegations to
round out a plaintiffs complaint or construct a legal theory
on plaintiffs behalf.” Whitney v. N. M., 113 F.3d 1170, 117374 (10th Cir. 1997) (quotations and citations omitted). The
Tenth Circuit interpreted this rule to mean, “if the court can
reasonably read the pleadings to state a valid claim on
which the plaintiff could prevail, it should do so despite the
plaintiffs failure to cite proper legal authority, his confusion
of various legal theories, his poor syntax and sentence
construction, or his unfamiliarity with pleading
requirements.” Hall v. Bellmon, 935 F.2d 1106, 1110 (10th
Cir. 1991). However, this interpretation is qualified in that
it is not “the proper function of the district court to assume
the role of advocate for the pro se litigant.” Id.; see also
Peterson v. Shanks, 149 F.3d 1140, 1143 (10th Cir. 1998)
(citing Dunn v. White, 880 F.2d 1188, 1197 (10th Cir. 1989)).
III. Analysis
A. Section 1983 — Official-Capacity Claims
1.

Boasberg and Sahli

The Court finds first that Plaintiffs official-capacity
claims against Boasberg and Sahli are duplicative of his
claims against DPS. “[A] section 1983 suit against a
municipality and a suit against a municipal official acting
in his or her official capacity are the same.” Stuart v.
Jackson, 24 F. App’x 943, 956 (10th Cir. 2001) (quoting
Myers v. Okla. Cnty. Bd. of Cnty .Comm’rs, 151 F.3d 1313,
1316 n.2 (10th Cir. 1998)); see also Watson v. City of Kan.
City, 857 F.2d 690, 695 (10th Cir. 1988) (treating as one
claim the plaintiffs claim against a municipality and claims
against municipal officials acting in their official capacities).
As the Supreme Court explained, “[o] fficial-capacity suits .. .
generally represent only another way of pleading an action
against an entity of which an officer is an agent. As long as
the government entity receives notice and an opportunity to
respond, an official-capacity suit is, in all respects other

64a
Appendix D
than name, to be treated as a suit against an entity.” Ky. v.
Graham, 473 U.S. 159, 165-66 (1985) (citations and
quotations omitted).
Consequently, where a plaintiff sues both the
municipality and municipal official in an official capacity
under the same theory of recovery, courts have dismissed
the official capacity claim as “duplicative” or “redundant” of
the claim against the municipal entity. Barr v. City of
Albuquerque, No. 12-CV-01109-GBW, 2014 WL 11497831,
at *13 (D. N.M. Apr. 8, 2014) (citing Starrett v. Wadley, 876
F.2d 808, 813 (10th Cir. 1989) (despite presence of official
capacity claim, “the appeal effectively is between only two
parties: the County and plaintiff’)); see also Doe v. Douglas
Cnty. Sch. Dist., 775 F. Supp. 1414, 1416 (D. Colo. 1991)
(“redundant” official capacity claim dismissed); Riendl v.
City of Leavenworth, 361 F. Supp. 2d 1294, 1302 (D. Kan.
2005) (same).
As such, the Court respectfully recommends that
Plaintiffs claims against Defendants Boasberg and Sahli in
their official capacities be dismissed. See Hays v. Ellis, 331
F. Supp. 2d 1303, 1306 n.2 (D. Colo. 2004).
2.

DPS

“[M]unicipal defendants—public school districts and
school boards included—can’t be held liable under 42 U.S.C.
§ 1983 solely because they employ a person who violated the
plaintiffs constitutional rights.” Lawrence v. Sch. Dist. No. 1,
560 F. App’x 791, 794 (10th Cir. 2014) (citing Monell v. Dep’t
of Soc. Servs., 436 U.S. 658, 691 (1978)); see also Hinton v.
City ofElwood, Kan., 997 F.2d 774, 782 (10th Cir. 1993) (“[a]
municipality may not be held liable under § 1983 solely
because its employees inflicted injury on the plaintiff.”)
(quoting Monell, 436 U.S. at 692). Hence, local governments
can be liable under Section 1983 “only for their own illegal
acts.” Connick v. Thompson, 563 U.S. 51, 60 (2011) (internal
quotation and citations omitted) (emphasis in original).

65a
Appendix D
Thus, to establish a Section 1983 claim against a
municipality, a plaintiff must “show that the policy was
enacted or maintained with deliberate indifference to an
almost inevitable constitutional injury” by plausibly
alleging (1) the existence of a municipal policy or custom, (2)
causation, and (3) state of mind. Schneider v. City of Grand
Junction Police Dep’t, 717 F.3d 760, 769 (10th Cir. 2013).
In establishing the first requirement, a plaintiff may
show a municipal policy or custom in the form of any of the
following:
(1) a formal regulation or policy statement; (2) an
informal custom amounting to a widespread practice
that, although not authorized by written law or
express municipal policy, is so permanent and well
settled as to constitute a custom or usage with the
force of law; (3) the decisions of employees with final
policymaking authority; (4) the ratification by such
final policymakers of the decisions - and the basis for
them - of subordinates to whom authority was
delegated subject to these policymakers’ review and
approval; or (5) the failure to adequately train or
supervise employees, so long as that failure results
from deliberate indifference to the injuries that may
be caused.
Bryson v. City of Okla. City, 627 F.3d 784, 788 (10th Cir.
2010) (quoting Brammer-Hoetler v. Twin Peaks Charter
Acad., 602 F.3d 1175, 1189-90 (10th Cir. 2010)) (internal
quotations omitted).
Here, Vazirabadi’s allegations supporting his First,
Second, and Fifth Claims for Relief, taken as true and
liberally construed, assert that DPS’ online employment
application system, which seeks information as to whether
the applicant is bilingual and, if so, in what language,
violated his rights against national origin and religious
(“Muslim”) discrimination by subjecting him to “extreme
vetting” which is governed by a formal policy, or serves as
an informal custom/widespread practice, or is the result of a
decision by a final policymaker, Defendant Superintendent

66a
Appendix D
Boasberg. See FAC If 40 (“Such targeted software application
could not just appear on its own, without [the] highest direct
approval, funding and support in the organization by
established policy, procedure and customs.”).
Plaintiff also alleges for his Fourth Claim for Relief
that DPS subjected him to a “warrantless search” by its
“extreme vetting,” which he describes as an “out of [the]
norm background check that not-bilingual [sic] applicants
do not experience.”3 FAC f 62. The Court finds these
allegations, liberally construed, involve the same policy or
custom underlying the online application system.
Finally, Plaintiff alleges for his Third Claim for Relief
that DPS made false assertions and provided “altered”
documents to the Equal Employment Opportunity
Commission (“EEOC”) during its investigation of the
Plaintiffs Title VII claim. FAC If 55. Vazirabadi alleges no
municipal policy nor custom underlying DPS’s submission
to the EEOC and, thus, the Court will recommend
dismissing this claim against DPS.
Because Vazirabadi alleges the existence of a
municipal policy, custom, or final decision in the form of
DPS’s online employment application system, which seeks
information concerning its applicants’ proficiencies for
second languages for the purpose of subjecting these
applicants to extreme vetting, the Court must determine
whether his allegations are plausible for a municipal
liability claim.
“When a policy is not unconstitutional in itself, the
county cannot be held liable solely on a showing of a single
incident of unconstitutional activity.” Meade v. Grubbs, 841
3 Considering Vazirabadi’s repeated use of the “warrantless search”
language, the Court will liberally construe this claim as brought
under the Fourth Amendment, rather than under the Fourteenth
Amendment’s due process clause. FAC 17, 24.

67a
Appendix D
F.2d 1512, 1529 (10th Cir. 1988) (citation omitted);
abrogated on other grounds as recognized in Schneider, 717
F.3d at 767. Consequently,“[w]here a plaintiff seeks to
impose municipal liability on the basis of a single incident,
the plaintiff must show the particular illegal course of action
was taken pursuant to a decision made by a person with
authority to make policy decisions on behalf of the entity
being sued.” Moss v. Kopp, 559 F.3d 1155, 1169 (10th Cir.
2009) (citation omitted); see also Butler v. City of Norman,
992 F.2d 1053, 1055 (10th Cir. 1993) (“Proof of a single
incident of unconstitutional activity is not sufficient to
impose liability under [.MonellTj unless proof of the incident
includes proof that it was caused by an existing,
unconstitutional municipal policy, which policy can be
attributed to a municipal policymaker.”).
Here, DPS asserts that Vazirabadi fails to establish the
online system constitutes a “custom” or “widespread
practice” because he “identifies no other specific job
applicants who were subjected to extreme vetting” due to
the questions seeking bilingual proficiency. Mot. 5-6. The
Court agrees that Vazirabadi’s allegations identify only a
single incident of discrimination—Defendant Sahli’s
extreme vetting based on national origin and religion—and,
thus, Vazirabadi must allege that the system itself is illegal
and was implemented by a person with authority to make
policy decisions on behalf of DPS. At this early stage of the
litigation during which no discovery has occurred, and
taking Vazirabadi’s allegations as true, the Court
recommends finding he plausibly alleges the existence of a
municipal policy sufficient to meet the first requirement. See
FAC f 40 (“Defendant’s [sic] bilingual application design,
creation and deployment require multi-department
involvement within Defendants’ organization from the
highest level (Superintendent Boasberg) to Information
Technology (IT) and Human Resources, each contributing

68a
Appendix D
according to expertise and responsibilities for its creation,
development, implementation, usage and distribution of
collected data back into Defendants’ organization.”).
Second, Vazirabadi must allege plausibly that his
stated injuries were caused by the extreme vetting
implemented from information obtained by DPS’s online
employment application system. To establish the causation
element, the challenged policy or practice must be “closely
related to the violation of the plaintiffs federally protected
right.” Schneider, 717 F.3d at 770 (quoting Martin A.
Schwartz, Section 1983 Litigation Claims & Defenses, §
7.12[B] (2013)). This requirement is satisfied if the plaintiff
shows that “the municipality was the ‘moving force’ behind
the injury alleged.” Id. (quoting Bd. of Cnty. Comm’rs v.
Brown, 520 U.S. 397, 404 (1997)). Vazirabadi must therefore
“demonstrate a direct causal link between the municipal
action and the deprivation of federal rights.” Id.
As set forth above, Vazirabadi’s allegations, taken as
true and construed liberally, assert that DPS implemented
its online employment application system with questions
regarding an applicant’s bilingual proficiency (particularly
in Somali, Amharic, Arabic, Ethiopian, and Farsi
languages) for the purpose of subjecting any such bilingual
applicants to “extreme vetting.” The Court finds
Vazirabadi’s allegations do not demonstrate the alleged
challenged practice—profiling applicants for special
investigation—is closely related to DPS’s failure to hire him.
Vazirabadi alleges:
Defendant, Terri Sahli, without any legal reason,
solely because of Plaintiffs bilingual confirmation,
subjected him to extreme vetting. Terri Sahli
accomplished this vetting by her access to various
online databases, which upon Discovery, Plaintiff will
be able to identify exact databases she accessed. Of
course, until completion of Discovery, Plaintiff will
not be able to present the Court what exact database
or method Defendant used for Plaintiff extreme

69a
Appendix D
vetting, but Defendant’s position, as Enterprise Risk
Management under color of law gives her wide range
of government and non-government database access.
Plaintiff presented evidence that he was perfectly
qualified and had excellent interviews and great
chemistry with the interview panel members, yet all
of a sudden, out of nowhere, he got rejected with no
explanation or reason. All circumstantial evidence
leads to Terri Sahli’s role and her access to restricted
databases to subject Plaintiff to extreme vetting.
Plaintiff finds Sahh equally responsible, in official
and individual capacities, for Plaintiff s deprivation
of Due Process and loss of Property Interest.
FAC THf 60, 61. These allegations, even taken as true, reflect
nothing more than speculation that Defendant Sahli
engaged in any “extreme” vetting of Vazirabadi’s application
through “access to various online databases.” Varizabadi
[sic] alleges no indication of actual search results, whether
electronic or otherwise, by Sahh culminating in the rejection
of his application. His baseless assertion that “all of a
sudden, out of nowhere, he got rejected” is insufficient to
demonstrate that Sahh engaged in “extreme” vetting of his
apphcation, particularly considering the ranking he
received following his in-person interview which, contrary
to Vazirabadi’s contention, reflects he ranked last (5 out of
5) of those selected for in-person interviews. FAC Ex. 9, ECF
No. 26 at 40.4
Accordingly, the Court finds Vazirabadi fails to allege
plausibly that DPS’s rejection of his apphcation was
directly caused by any “profiling for extreme vetting” by the
Defendants and, thus, recommends that the District Court
4 Vazirabadi alleges that this document’s “metadata” reveals that the
“originator” of the document is “Starecki Kim, DPS Attorney” and
reflects that the document underwent “ample changes.” FAC ^ 30.
However, even if changes were made to the document “2-3 months after
[the] interview” (FAC 31), such information does not demonstrate the
information contained in the document is contrived or otherwise untrue;
rather, Vazirabadi’s allegations are nothing more than speculation.

70a
Appendix D
grant the motion to dismiss Vazirabadi s First, Second,
Third, Fourth, and Fifth Claims for Relief against DPS.5
B.

Section 1983 — Individual-Capacity Claims

As set forth above, Vazirabadi alleges First
(Establishment Clause), Fourth (warrantless search), and
Fourteenth (due process and equal protection) Amendment
claims against the individual Defendants. The Defendants
assert they are, in their individual capacities, entitled to
qualified immunity from liability for Vazirabadi s claims.
Qualified immunity protects from litigation a public official
whose possible violation of a plaintiffs civil rights was not
clearly a violation at the time of the official’s actions. See
Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982). “It is an
entitlement not to stand trial or face the other burdens of
litigation.” Ahmad v. Furlong, 435 F.3d 1196, 1198 (10th
Cir. 2006) (internal quotations and citations omitted). “The
privilege is an immunity from suit rather than a mere
defense to liability.” Id.
When a defendant asserts the defense of qualified
immunity, the burden shifts to the plaintiff to overcome the
asserted immunity. Riggins v. Goodman, 572 F.3d 1101,

5 Unlike his Title VII claim against DPS in which Vazirabadi alleges a
“failure to hire,” Vazirabadi focuses on the Defendants’ alleged “extreme
vetting” for his constitutional claims. See FAC f 44 (“Defendants reaped
liability for Plaintiffs Cause of Actions for targeting bilingual job
applicants for extreme vetting.” (First Claim for Relief)); U 50 (“Plaintiff
alleges Defendants subjected him to extreme vetting because of his
bilingual confirmation that not-bilingual [sic] applicants do not
experience.” (Second Claim for Relief)); U 60 (“Defendant Terri Sahli ...,
solely because of Plaintiffs bilingual confirmation, subjected him to
extreme vetting.” (Fourth Claim for Relief)); f 68 (“Defendants’ conduct
in identifying and classifying job applicants from Muslim[ ] Middle East
and African countries for extreme vetting clearly shows, under color of
law, the depth of animus against this class of people.” (Fifth Claim for
Relief)). In addition, Vazirabadi alleges Defendants submitted “false
statements” and “doctored documents” to the EEOC for his Third
Claim for Relief. FAC ^ 56.

71a
Appendix D
1107 (10th Cir. 2009). “The plaintiff must demonstrate on
the facts alleged both that the defendant violated his
constitutional or statutory rights, and that the right was
clearly established at the time of the alleged unlawful
activity.” Id. (citing Pearson v. Callahan, 555 U.S. 223, 232
(2009)). The Supreme Court affords courts the discretion to
decide “which of the two prongs of the qualified immunity
analysis should be addressed first in light of the
circumstances in the particular case at hand.” Pearson, 555
U.S. at 236; see also Christensen v. Park City Mun. Corp.,
554 F.3d 1271, 1277 (10th Cir. 2009).
In this case, the Court will first determine whether
Vazirabadi has stated plausible violations of his
constitutional rights and, if he has, the Court will next
determine whether that right was clearly established.
1. Fourteenth Amendment Due Process Claims (First
and Third Claims)
A plaintiff cannot allege a violation of either procedural
or substantive due process if he does not first show that he
had a protected property right. Potts v. Davis Cnty., 551 F.3d
1188, 1192 (10th Cir. 2009) (citing Hyde Park Co. v. Santa Fe
City Council, 226 F.3d 1207,1210 (10th Cir. 2000)). “Protected
property interests arise, not from the Constitution, but from
state statutes, regulations, city ordinances, and express or
implied contracts.” Dill v. City of Edmond, Okla., 155 F.3d
1193, 1206 (10th Cir. 1998); see also O’Gorman v. City of
Chicago, 111 F.3d 885, 890 (7th Cir. 2015) (same). The
Tenth Circuit has “recognized that ‘if state statutes or
regulations place substantive restrictions on a government
actors ability to make personnel decisions, then the
employee has a property interest’ protected by the
procedural due process clause.” Potts, 551 F.3d at 1192
(quoting Hennigh v. City of Shawnee, 155 F.3d 1249, 1253
(10th Cir. 1998)).

72a
Appendix D
Vazirabadi argues that his property interest in the PIE
position arises from his “legitimate claim of entitlement” to
the position based on his having been ranked “higher” than
other candidates following the telephone interviews and
having been ranked “highest” after the in-person interviews.
Resp. 13. Even taking these allegations as true, the Court
rejects Vazirabadi s argument as not supported by
prevailing law. Vazirabadi fails to identify any “rights” he
might have that were “created by state statutes, state or
municipal regulations or ordinances, [or] contracts” with
DPS to be hired for the PIE positions. Moreover, he has
alleged no “substantive restrictions on a [DPS official’s]
ability to make personnel decisions” with respect to hiring
for the PIE positions. See, e.g., McDonald v. City of St. Paul,
679 F.3d 698, 705 (8th Cir. 2012) (“Even if the mayor was
constrained to appoint from the initial list of three finalists,
the fact that an appointment from that list still would have
been subject to the approval of the city council prevents
McDonald from possessing a legitimate claim of entitlement
to the director position.”).
For Vazirabadi’s failure to show he possessed a
protected property right in the PIE positions,
the Court recommends that the District Court find Sahli
and Boasberg are entitled to qualified immunity for
Vazirabadi’s failure to state his due process claims and
grant the motion to dismiss Vazirabadi’s First and Third
Claims for Relief against the Defendants.
2. Fourteenth Amendment Equal Protection Claims
(Second Claim)6

6 The applicability of Title VII does not interfere with Vazirabadi’s
right to sue under the Equal Protection Clause. The Tenth Circuit
has ruled that “[i]f a plaintiff can show a constitutional violation by
someone acting under color of state law, then the plaintiff has a cause
of action under Section 1983, regardless of Title VII’s concurrent
application.” Starrett, 876 F.2d at 814.

73a
Appendix D
The Equal Protection Clause is implicated when the
government makes class-based decisions in the employment
context, treating distinct groups of individuals categorically
differently. Engquist v. Oregon Dep’t ofAgric., 553 U.S. 591,
605 (2008). To state a claim for an equal protection violation,
a plaintiff must allege that a government actor intentionally
discriminated against him or her on the basis of a suspect
class. Lobato v. N.M. Env’t. Dep% Envtl. Health Div., 838 F.
Supp. 2d 1213, 1223 (D.N.M. 2011) (citing Hayden v. Cnty.
of Nassau, 180 F.3d 42, 48 (2d Cir. 1999)); see also Ingram
v. Cooper, 163 F. Supp. 3d 1133, 1139 (N.D. Okla. 2016) (“To
establish a violation of the Equal Protection Clause, a
plaintiff must allege that a defendant acted with the intent
to discriminate against the plaintiff because of the plaintiffs
protected status.”). Suspect classifications include those
based on national origin. Lobato, 838 F. Supp. 2d at 1223
(citing Edwards v. Valdez, 789 F.2d 1477, 1482 (10th Cir.
1986)); Ingram, 163 F. Supp. 3d at 1139 (citing City of
Cleburne v. Cleburne Living Ctr., 473 U.S. 432 (1985) and
Ramirez v. Dep’t ofCorrs., 222 F.3d 1238, 1243 (10th Cir.
2000)).
[I]ntentional discrimination can be demonstrated in
several ways. First, a law or policy is discriminatory
on its face if it expressly classifies persons on the
basis of race or gender. See Adarand Constructors,
Inc. v. Pena, 515 U.S. 200, 213, 227-29, 115 S. Ct.
2097, 2105, 2112-14, 132 L. Ed.2d 158 (1995). In
addition, a law which is facially neutral violates equal
protection if it is applied in a discriminatory fashion.
See Yick Wo v. Hopkins, 118 U.S. 356, 373-74, 6 S.
Ct. 1064, 1072-73, 30 L. Ed. 220 (1886). Lastly, a
facially neutral statute violates equal protection if it
was motivated by discriminatory animus and its
application results in a discriminatory effect. See
Village of Arlington Heights v. Metropolitan Housing
Dev. Corp., 429 U.S. 252, 264-65, 97 S. Ct. 555, 563,
50 L. Ed.2d 450 (1977).
Hayden, 180 F.3d at 48; see also SECSYS, LLC v. Vigil, 666
F.3d 678, 685—86 (10th Cir. 2012) (same). Discriminatory

74a
Appendix D
intent “requires that the decisionmaker ... selected or
reaffirmed a particular course of action at least in part
‘because of/ not merely ‘in spite of the law’s differential
treatment of a particular class of persons.” SECSYS, LLC,
666 F.3d at 685 (quoting Personnel Adm’r of Mass. v. Feeney,
442 U.S. 256, 279 (1979)).
In this case, Defendants argue the prevailing law
provides that “language, by itself, does not identify members
of a protected class, to support an equal protection claim”
and “[c]lassifying applicants based on their proficiency in
other languages is not unconstitutional.” Mot. 9 (internal
quotations and citations omitted). In other words, an online
employment system that asks applicants whether they are
bilingual and, if so, in what language does not itself violate
the Equal Protection Clause. The Court agrees. See, e.g.,
Soberal-Perez v. Heckler, 717 F.2d 36, 41 (2d Cir. 1983)
(“the Secretary’s failure to provide forms and services in
the Spanish language, does not on its face make any
classification with respect to Hispanics as an ethnic group.”).
But, as in Soberal-Perez, Vazirabadi’s claim is that
DPS’s employment system, although neutral on its face,
nevertheless discriminates against Muslim Iranians by its
application to “profile” Muslim Iranian’s applications for
“extreme vetting.” “jF]acially neutral conduct can constitute
discrimination in violation of the Equal Protection Clause;
however, such a claim requires that a plaintiff show an
intent to discriminate against the suspect class.” SoberalPerez, 717 F.2d at 41—42; see also SECSYS, LLC, 666 F.3d
at 685. Here, Vazirabadi fails to allege the requisite intent.
As set forth above, his allegations that Sahh engaged in
“extreme” vetting of Vazirabadi’s application through
“access to various online databases” have no foundation and
are merely speculative. Vazirabadi’s other allegations,
taken as true, demonstrate that DPS officials selected
Vazirabadi for a telephone interview, a panel interview, and
a final interview with Sahh, all the while knowing that

75a
Appendix D
Vazirabadi spoke “Farsi/Persian” based on his answer on
the initial online application.
For Vazirabadi s failure to plausibly allege an “intent
to discriminate against the suspect class,” the Court
recommends that the District Court find Sahli and Boasberg
are entitled to qualified immunity for Vazirabadi s failure to
state an equal protection claim and grant the motion to
dismiss his Second Claim for Relief.
3.

Fourth Amendment Warrantless Search Claims
(Fourth Claim)

Although Vazirabadi brings his Fourth Claim for Relief
under the Fourteenth Amendment, he alleges the
Defendants engaged in a “warrantless search” by
conducting a “totally different and out of [the] norm
background check that not-bilingual applicants do not
experience.” FAC ^ 62. The Court liberally construes these
allegations as raising a Fourth Amendment claim for
warrantless search or seizure.
The Fourth Amendment provides:
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched, and the
persons or things to be seized.
U.S. Const, amend. IV. “A search subject to Fourth
Amendment protection occurs ‘when the government
violates a subjective expectation of privacy that society
recognizes as reasonable.’” Mimics, Inc. v. Village of Angel
Fire, 394 F.3d 836, 842 (10th Cir. 2005) (quoting Kyllo v.
United States, 533 U.S. 27, 33 (2001)). “[E]xcept in certain
carefully defined classes of cases, a search of private
property without proper consent is ‘unreasonable’ unless it
has been authorized by a valid search warrant.” Id. (quoting
Camara v. Mun. Ct., 387 U.S. 523, 528-29 (1967)).

76a
Appendix D
The Court will recommend that the District Court find
Sahli and Boasberg are entitled to qualified immunity for
Vazirabadi s failure to state a Fourth Amendment claim and
grant the motion to dismiss Vazirabadi’s Fourth Claim for
Relief. Again, the allegations, taken as true, show only
that Vazirabadi supposes that Sahli engaged in an “out-ofthe-norm” background check; the allegations reflect no
indication that such “extreme” check actually occurred.
Vazirabadi s assertion that “[a]ll circumstantial evidence
leads to Terri Sahli’s role and her access to restricted
databases to subject Plaintiff to extreme vetting” (FAC K 61)
is pure speculation and insufficient to demonstrate that the
“warrantless search” Vazirabadi alleges plausibly occurred.
Thus, the allegations fail to state a claim under Rule 12(b)(6).
4. First Amendment Establishment Clause Claims
(Fifth Claim)
The First Amendment to the Constitution provides that
“Congress shall make no law respecting an establishment of
religion, or prohibiting the free exercise thereof.” The
Fourteenth Amendment imposes those substantive
limitations on the legislative power of the States and their
political subdivisions. Santa Fe Indep. Sch. Dist. v. Doe, 530
U.S. 290, 301 (2000) (citing Wallace v. Jaffree, 472 U.S. 38,
49-50 (1985)).
The principle that government may accommodate the
free exercise of religion does not supersede the
fundamental
limitations
imposed
by
the
Establishment Clause. It is beyond dispute that, at a
minimum, the Constitution guarantees that
government may not coerce anyone to support or
participate in religion or its exercise, or otherwise act
in a way which “establishes a [state] religion or
religious faith, or tends to do so.”
Lee v. Weisman, 505 U.S. 577, 587 (1992) (quoting Lynch v.
Donnelly, 465 U.S. 668, 678 (1984)). Thus, for his claim under
the Establishment Clause, Vazirabadi must have suffered

77a
Appendix D
injury because of alleged government action coercing him
to practice any particular religion or tending in any way to
create a state-endorsed religious faith. See id. at 588. Or,
standing under the Establishment Clause may exist when a
plaintiffs injuries result from religious bias or endorsement,
such as being “subjected to unwelcome religious exercises or
[being] forced to assume special burdens to avoid them.”
Valley Forge Christian Coll. v. Americans United for
Separation of Church & State, Inc., 454 U.S. 464, 472 n.22
(1982).
For the same reasons described herein, Vazirabadi’s
allegation that “Defendants’ conduct in identifying and
classifying job applicants from Muslim[ ] Middle East and
African countries for extreme vetting clearly shows, under
color of law, the depth of animus against this class of people”
is conclusory and lacks any foundation. In addition, the
allegations taken as true reflect that the online employment
application system requests whether the applicant is
bilingual in the following languages—Arabic, Amharic,
Somali, and Swahili (FAC f 22)—which, Vazirabadi admits,
includes at least one language for which the general
population is not Muslim (Amharic). Resp. 2.
The Court recommends that the District Court find
Sahli and Boasberg are entitled to qualified immunity for
Vazirabadi’s failure to state a First Amendment claim and
grant the motion to dismiss Vazirabadi’s Fifth Claim for
Relief against Defendants.
5.

Title VII National Origin Discrimination Claim
(Sixth Claim)

“A plaintiff proves a violation of Title VII either by direct
evidence of discrimination or by following the burden-shifting
framework of McDonnell Douglas Corp. v. Green, 411 U.S.
792, 93 S. Ct. 1817, 36 L. Ed.2d668 (1973).” Khalik, 671 F.3d
at 1192. In this case, Vazirabadi brings his Title VII claim

78a
Appendix D
for discrimination based on national origin7 against DPS
and, despite his assertions to the contrary (FAC f 75),
alleges no direct evidence of discrimination.
“[The] McDonnell Douglas ... three-step analysis
requires the plaintiff first prove a prima facie case of
discrimination.” Jones v. Okla. City Public Schs., 617 F.3d
1273, 1279 (10th Cir. 2010). “While the 12(b)(6) standard
does not require that Plaintiff establish a prima facie case
in her complaint, the elements of each alleged cause of
action help to determine whether [a plaintiff) has set forth
a plausible claim.” Khalik, 671 F.3d at 1192 (emphasis
added).
To establish a prima facie case for a failure-to-hire
claim, a plaintiff must establish that (1) [he] belongs to a
protected class; (2) [he] applied and was qualified for a job
for which the employer was seeking applicants; (3) despite
being qualified, [he] was rejected; and (4) after [his]
rejection, the position remained open and the employer
continued to seek apphcants from persons of [his]
qualifications.” Fischer v. Forestwood Co., Inc., 525 F.3d
972, 982—83 (10th Cir. 2008). If Vazirabadi makes out a
prima facie case, “[t]he burden then shifts to the defendant
to produce a legitimate, non-discriminatory reason for the
adverse employment action.” Id. If DPS meets that burden,
“the burden then shifts back to the plaintiff to show that

7 Vazirabadi states in his response brief that his “sixth [sic] Cause of
Action under Title VII clearly states his discrimination was based on
his national origin and age.” Resp. 4 (emphasis added). The Court
disagrees; the FAC mentions nothing about discrimination based on
Vazirabadi’s age (which itself is not identified), but only references
DPS’s position statement to the EEOC in which it allegedly “lied” about
the successful applicant’s age being “over 40.” Because Vazirabadi fails
to plead any allegations of discrimination based on his age (and there
is no indication that he exhausted his administrative remedies for an
age claim), the Court will not construe the FAC as bringing a claim
under the Age Discrimination in Employment Act, as opposed to Title
VII which does not govern age discrimination.

79a
Appendix D
[his] protected status was a determinative factor in the
employment decision or that the employer’s explanation is
pretext.” Id.
Here, DPS argues that Vazirabadi fails to meet the
first requirement of a prima facie case8 because
“interchanging national origin and language is a legal and
logical error.” Mot. 13 (citing Napreljac v. John Q. Hammons
Hotels, Inc., 461 F. Supp. 2d 981, 1030 (S.D. Iowa 2006)).
DPS’s position might be correct if Vazirabadi alleged only
that DPS’s profiling of Iranians through its online system
for extreme vetting violated Title VII. See, e.g., SoberalPerez, 717 F.2d at 41 (classification on the basis of language
does not by itself “identify members of a suspect class”); see
also Velasquez v. Goldwater Mem’l Hosp., 88 F. Supp. 2d
257, 262 (S.D. N.Y. 2000) (raising a triable issue of fact
regarding the existence of an English-only policy will not
suffice to demonstrate national origin discrimination).
However, and as DPS acknowledges (Mot. 13),
Vazirabadi’s allegations can be liberally construed as
stating a “straight-forward” failure-to-hire claim—that is,
DPS failed to hire Vazirabadi, an Iranian national who was
qualified for the PIE positions, based on his national origin.
See FAC
74—77; Resp. 5. Thus, the Court finds that
Vazirabadi plausibly alleges the first, second, and third
requirements of a prima facie case: (1) Vazirabadi’s national
origin is Iranian; (2) he applied for and was qualified for the
PIE positions (based on the allegations that he was selected
for three interviews with DPS officials); and (3) despite his
qualifications, Vazirabadi was not selected for hire.

8 DPS does not actually reference the first requirement of a prima
facie case in its analysis (Mot. 12), but the Court infers that DPS
argues language is not a “protected class.”

80a
Appendix D
As for the fourth requirement stated in Fischer, supra,
the allegations in this case do not fit and, thus, the Court
will need to modify it as it is currently stated. See Plotke v.
White, 405 F.3d 1092, 1099 (10th Cir. 2005) (“[T]he
articulation of a plaintiffs prim,a facie case may well vary,
depending on the context of the claim and the nature of the
adverse employment action alleged.”). In Roberts v. Okla.,
110 F.3d 74, 1997 WL 163524, at *4 (10th Cir. Apr. 8, 1997),
the Tenth Circuit stated the fourth requirement for a
similarly-pled failure-to-hire prima facie claim as follows:
“(4) the defendant hired other persons possessing [the
plaintiffs] qualifications who were not members of [his]
protected class.” Regarding whether the hired candidates
were “not members of his protected class,” the allegations in
this case, taken as true, reflect that DPS hired a “28-yearold Asian male” and a “29-to-33-year old” female, Ashley S.,
for the open PIE positions. FAC *[ 28. Vazirabadi fails to
identify Ashley S.’s national origin, both in the FAC and in
his response brief. Although an exhibit attached to the
motion includes a black-and-white photograph of Ashley S.,
who appears to be a blonde Caucasian (FAC Ex. 8), such
information is insufficient to demonstrate plausibly that
Ashley S. is not Iranian.
As for whether the Asian male, “T,” possessed
Vazirabadi s qualifications, Vazirabadi had more than ten
years of work experience, while “T” had five years of work
experience. FAC Ex. 9. DPS documents attached to the FAC
appear to reflect “scores” each candidate received during
telephone interviews (FAC If 23); Vazirabadi received a
score of “9/8,” and “T” received a score of “7/8.” Id.; FAC Ex.
3. Based on these scores, DPS invited Vazirabadi and “T” for
panel interviews. See FAC f 24. Based on these allegations,
the Court finds Vazirabadi plausibly alleges the fourth
requirement for a prima facie case.

81a
Appendix D
DPS asserts that it declined to select Vazirabadi for
hire because he was “not a good team fit” for the PIE
positions. Assuming this is a legitimate, non-discriminatory
reason for failure to hire, Vazirabadi must show that DPS’s
reason is pretext. See Klialik, 671 F.3d at 1192. A document
attached to the FAC and titled, Ranking Matrix, allegedly
lists the names of ten potential candidates for the PIE
positions, including Vazirabadi and the two hired
candidates; four of the ten candidates were not selected for
panel interviews and a fifth candidate declined the
interview. FAC Ex. 9. The remaining candidates were
ranked “1-5,” with Vazirabadi ranked as a “5" and the hired
candidates ranked “1" and “2.” Id. DPS argues that this
document confirms that the two highest ranking individuals
were selected for the PIE positions; Vazirabadi counters
that the document reflects he is the highest ranked
candidate. Although the document fists the apparent reason
for Vazirabadi s non-selection (“not a good team fit”), he is
also noted to have “good experience” and the candidate
ranked third also is noted to be “not a good team fit.” In
addition, the Court finds that it lacks sufficient information
concerning when, by whom, and for what purpose the
Ranking Matrix was created. The Court finds that whether
DPS’s reason is pretext, considering the limited facts at this
stage of the litigation, is a factual dispute which cannot be
resolved under Rule 12(b)(6).
Construing the allegations liberally and taking them
as true, the Court finds Vazirabadi states the elements of a
Title VII failure-to-hire claim showing that DPS selected “T”
rather than Vazirabadi based on Vazirabadi’s national
origin. Therefore, the Court recommends that the Court
deny the motion to dismiss Vazirabadi’s Sixth Claim for
Relief as it relates to DPS’s selection of “T” for hire.

82a
Appendix D
CONCLUSION
The Court concludes that Vazirabadi fails to state
plausible constitutional claims against the Defendants;
however, he states a claim under Title VII as described
herein. Accordingly, the Court respectfully recommends
that Judge Martinez grant in part and deny in part
Defendants’ Motion to Dismiss Amended Complaint iftied
July 28, 2017: ECF No. 291. dismiss Vazirabadi s First,
Second, Third, Fourth, and Fifth Claims for Relief, and
dismiss the individual Defendants from the case.9
Dated at Denver, Colorado, this 10th day of October, 2017.
BY THE COURT:
s/
Michael E. Hegarty
United States Magistrate Judge

9 Be advised that all parties shall have fourteen days after service
hereof to serve and file any written objections in order to obtain
reconsideration by the District Judge to whom this case is assigned.
Fed. R. Civ. P. 72. The party filing objections must specifically
identify those findings or recommendations to which the objections
are being made. The District Court need not consider frivolous,
conclusive or general objections. A party’s failure to file such written
objections to proposed findings and recommendations contained in
this report may bar the party from a de novo determination by the
District Judge of the proposed findings and recommendations. United
States v. Raddatz, 447 U.S. 667, 676-83 (1980); 28 U.S.C. § 636(b)(1).
Additionally, the failure to file written objections to the proposed
findings and recommendations within fourteen days after being
served with a copy may bar the aggrieved party from appealing the
factual and legal findings of the Magistrate Judge that are accepted
or adopted by the District Court. Duffield v. Jackson, 545 F.3d 1234,
1237 (10th Cir. 2008) (quoting Moore v. United States, 950 F.2d 656,
659 (10th Cir. 1991)).

83a
Appendix E
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Magistrate Judge Michael E. Hegarty
Civil Action No. 1:17-CV-01194-WJM-MEH
Document: 82
Filed: July 30, 2018
Courtroom Deputy: Amanda Montoya
FTR: Courtroom A 501
Parties:
ALIREZA VAZIRABADI,

Counsel:
Pro se

Plaintiff,
v.
DENVER PUBLIC SCHOOLS,
Defendant.

Jonathan Fero

COURTROOM MINUTES
DISCOVERY CONFERENCE
Court in session: 1:29 p.m.
Court calls case. Appearances of counsel.
Parties are in dispute regarding Plaintiff s request for
documents regarding bilingual applicants. A portion of the
Plaintiffs application is tendered to the court.
ORDERED: Within two weeks, defendants shall disclose the
numerical comparison from a three year period
comparing the number of overall applicants with
the number of applicants who identified as
bilingual. If possible, applicants who identified as
Hispanic should be excluded. Counsel shall
prepare an estimate of cost for production for this
information.
Status Conference is set for August 13, 2018 at 10:00 a.m.
Parties are reminded that they must confer before bringing
a discovery dispute before the court.
Court in recess: 2:22 p.m. Hearing concluded.
Total in-court time 00:53
* To obtain a transcript of this proceeding, please contact Patterson
Transcription Company at (303) 755-4536 or AB
Court Reporting & Video, Inc. at (303) 629-8534.

84a
Appendix F
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 1:17-CV-01194-WJM-SKC
Document: 85
Filed: August 6, 2018

Doc. No. 85 Filed & Entered: 08/06/2018, Docket Text
Full docket text for document 85:
REASSIGNING MAGISTRATE JUDGE.
This action is reassigned to Magistrate Judge S. Kato Crews,
upon his appointment. All future pleadings should reference
Magistrate Judge Crews at the end of the civil action number
(such as 15-cv-00001-PAB-SKC). Unless otherwise ordered,
the dates and times for all previously scheduled matters will
be maintained and will now he handled by Magistrate Judge
Crews in Courtroom C-204. His chambers are located in
Room C-253 of the Byron G. Rogers Courthouse. His
telephone number is 303-335-2117. (Text only entry) (angar,)

w
s>

©

O 3 £ ■« -s .3
c-

(N

»0.

^

2 S 3 ”

S 5

t>

3

o

t>

(fl

ci—i
M-4

o

tr-t
<U

be

cs

Ph
oo

a
oo
i-H

rH

a
fe
oo
o
tH

-to

C3
©

43s «

■

' .2 U ^
’8 s
tt;8j
to

o
3 * S3 § « *■ 2 S3 .8 <- « S
>tt •§- ^2
O
.^a*‘
o 8
Z cc»
*15

o
«

-g •»-§

§&BJ*g

m

&£
C «3 o.

CO

£

4
05
©

>

V

t~

©

05

CC

o

'c05

§ 3 1 -11■ .s s 3 5 11 s 1

En

WCMQ

S
i?

2

JR ,w <
-£3 wf
c

.2 -S £

gg£
o. a *

OO

CO

o .:« to © co 2 O

■*H

O

M> 2J. i- rH

T“H

o

«

W-mV

S
•S'a .2

ft ft’s.

®»s
1

o
«

tn a> is

&$-3

v 1 «o

a2 •gas
S-g\8
o

CO

ifl ^

to

to

“ § H N ™ S

c5

05 in

3 1 2 w S

sto
IN

-''■<!

’ «

;;■*§

CO

oo

#1 • I'S1S §|s S3 si t1 - s 5

^ ,ft
2

<s.
05

o-'

“si-

g

fi SS Isllsssl! 3 £ S 1if
s u5

&
x
S'
I S
a'j

g ft

* 5
v«.
- w-,

CO

'ft.

■^lllllHJltl
o X

&

os

.5
'x

w

Q

q

*3<

bp
CS

CM

Soo

.S
<3

d

•a

S'

8
HH

H

i>
O
«

xrpvdddy
BS8

r-H

<$2
fc! o °
ly? ■9-1

|o
!-•

co

5X1

■5m

O

o^
TO
fi

o

CO
TO
W)

-S
>%

w
P-<

■

c

«
CO

■S>

$
t-H

■rH

•g-H

t-H

ra

rd

ffi

■ TO

:a

X

(x)

M

CD
rH
CD

.

•top
a3 • -S'
o
«

o
Q

C§

O

.W

OQ

s
05
•*h

05

-

u>
d)

ST
ftl

tH

o
:>:.

•rH

O

•SO.
vrH

d

o

TO
TO
OJ

O

KM■—<

o

■>

<f

Q
:W

U xtpvdddy
B98

87a
Appendix I
STATUTORY AND REGULATORY PROVISIONS
1. 42 U.S.C. § 2000e provides in pertinent part:
Definitions
For the purpose of this subchapter—
(a) The term “person” includes one or more
individuals, governments, governmental agencies,
political subdivisions, labor unions, partnerships,
associations,
corporations, legal representatives,
mutual companies, joint-stock companies, trusts,
unincorporated organizations, trustees, trustees in
cases under title 11, or receivers.
(b) The term “employer” means a person engaged
in an industry affecting commerce who has fifteen or
more employees for each working day in each of twenty
or more calendar weeks in the current or preceding
calendar year, and any agent of such a person, but such
term does not include (1) the United States, a
corporation wholly owned by the Government of the
United States, an Indian tribe, or any department or
agency of the District of Columbia subject by statute to
procedures of the competitive service (as defined in
section 2102 of title 5), or (2) a bona fide private
membership club (other than a labor organization)
which is exempt from taxation under section 501(c) of
title 26, except that during the first year after March 24,
1972, persons having fewer than twenty-five employees
(and their agents) shall not be considered employers.
*****
2. 42 U.S.C. § 2000e-2 provides in pertinent part:
Unlawful employment practices
(a) Employer practices
It shall be an unlawful employment practice for an
employer—
(1) to fail or refuse to hire or to discharge any
individual, or otherwise to discriminate against any
individual with respect to his compensation, terms,

88a
Appendix I
conditions, or privileges of employment, because of such
individual’s race, color, religion, sex, or national
origin; or
(2) to limit, segregate, or classify his employees or
applicants for employment in any way which would
deprive or tend to deprive any individual of employment
opportunities or otherwise adversely affect his status as
an employee, because of such individual’s race, color,
religion, sex, or national origin.
****

3. 42 U.S.C. § 2000e-2(k) provides in pertinent part:
Burden of proof in disparate impact cases.
(1)(A) An unlawful employment practice based on
disparate impact is established under this subchapter
only if—
(i) a complaining party demonstrates that a respondent
uses a particular employment practice that causes a
disparate impact on the basis of race, color, religion, sex,
or national origin and the respondent fails to
demonstrate that the challenged practice is job related
for the position in question and consistent with business
necessity;
****

4. 29 C.F.R. § 1602.14 provides
Preservation of records made or kept.
Any personnel or employment record made or kept by
an employer (including but not necessarily limited to
requests for reasonable accommodation, application
forms submitted by applicants and other records having
to do with hiring, promotion, demotion, transfer, lay-off
or termination, rates of pay or other terms of
compensation, and selection for training or
apprenticeship) shall be preserved by the employer for
a period of one year from the date of the making of the
record or the personnel action involved, whichever
occurs later. In the case of involuntary termination of
an employee, the personnel records of the individual

89a
Appendix I
terminated shall be kept for a period of one year from
the date of termination. Where a charge of
discrimination has been filed, or an action brought by
the Commission or the Attorney General, against an
employer under title VII, the ADA, or GINA, the
respondent employer shall preserve all personnel
records relevant to the charge or action until final
disposition of the charge or the action. The term
“personnel records relevant to the charge,” for example,
would include personnel or employment records relating
to the aggrieved person and to all other employees
holding positions similar to that held or sought by the
aggrieved person and application forms or test papers
completed by an unsuccessful applicant and by all other
candidates for the same position as that for which the
aggrieved person applied and was rejected. The date of
final disposition of the charge or the action means the
date of expiration of the statutory period within which
the aggrieved person may bring an action in a U.S.
District Court or, where an action is brought against an
employer either by the aggrieved person, the
Commission, or by the Attorney General, the date on
which such litigation is terminated.
-k * -k

5. 29 C.F.R. § 1602.40 provides:
Preservation of records made or kept.
Any personnel or employment record made or kept
by a school system, district, or individual school
(including but not necessarily limited to requests for
reasonable
accommodation,
application
forms
submitted by applicants and other records having to do
with hiring, promotion, demotion, transfer, layoff, or
termination, rates of pay or other terms of
compensation,
and selection for training or
apprenticeship) shall be preserved by such school
system, district, or school, as the case may be, for a
period of 2 years from the date of the making of the
record or the personnel action involved, whichever
occurs later. In the case of involuntary termination of

90a
Appendix I
an employee, the personnel records of the individual
terminated shall be kept for a period of 2 years from the
date of termination. Where a charge of discrimination
has been filed, or an action brought against an
elementary or secondary school by the Commission or
the Attorney General, the respondent elementary or
secondary school system, district, or individual school
shall preserve similarly at the central office of the
system or district or individual school which is the
subject of the charge or action, where more convenient,
all personnel records relevant to the charge or action
until final disposition thereof. The term “personnel
record relevant to the charge/’ for example, would
include personnel or employment records relating to the
person claiming to be aggrieved and to all other
employees holding positions similar to that held or
sought by the person claiming to be aggrieved; and
application forms or test papers completed by an
unsuccessful applicant and by all other candidates for
the same position as that for which the person claiming
to be aggrieved applied and was rejected. The date of
“final disposition of the charge or the action” means the
date of expiration of the statutory period within which
a person claiming to be aggrieved may bring an action
in a U.S. district court or, where an action is brought
against a school system, district, or school either by a
person claiming to be aggrieved, the Commission, or the
Attorney General, the date on which such litigation is
terminated.
****

6. 29 C.F.R. § 1606.1 provides:
Definition of national origin discrimination.
The Commission defines national origin discrimination
broadly as including, hut not limited to, the denial of .
equal employment opportunity because of an
individual's, or his or her ancestor's, place of origin; or
because an individual has the physical, cultural or
linguistic characteristics of a national origin group. The
Commission will examine with particular concern

91a
Appendix I
charges alleging that individuals within the jurisdiction
of the Commission have been denied equal employment
opportunity for reasons which are grounded in national
origin considerations, such as (a) marriage to or
association with persons of a national origin group; (b)
membership in, or association with an organization
identified with or seeking to promote the interests of
national origin groups; (c) attendance or participation in
schools, churches, temples or mosques, generally used
by persons of a national origin group; and (d) because an
individual's name or spouse's name is associated with a
national origin group. In examining these charges for
unlawful
national
origin
discrimination,
the
Commission will apply general title VII principles, such
as disparate treatment and adverse impact.
ie ic ★ ic

7. 29 C.F.R. § 1607.3 provides in pertinent part:
Discrimination defined: Relationship between
use of selection procedures and discrimination.
A. Procedure having adverse impact constitutes
discrimination unless justified. The use of any selection
procedure which has an adverse impact on the hiring,
promotion, or other employment or membership
opportunities of members of any race, sex, or ethnic
group will be considered to be discriminatory and
inconsistent with these guidelines, unless the procedure
has been validated in accordance with these guidelines,
or the provisions of section 6 below are satisfied.
****

8. 29 CFR § 1607.16 provides in pertinent part:
Selection procedure definition:
Q. Selection procedure. Any measure, combination of
measures, or procedure used as a basis for any
employment decision. Selection procedures include the
full range of assessment techniques from traditional
paper and pencil tests, performance tests, training
programs, or probationary periods and physical,
educational, and work experience requirements through
informal or casual interviews and unscored application
forms.

